<html>
<title> - H.R. 1690, THE MODERN SECURITY CREDENTIALS ACT</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]





                    H.R. 1690, THE MODERN SECURITY 
                            CREDENTIALS ACT

=======================================================================

                                HEARING

                               before the

                            SUBCOMMITTEE ON 
                        TRANSPORTATION SECURITY

                                 of the

                     COMMITTEE ON HOMELAND SECURITY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 4, 2011

                               __________

                           Serial No. 112-23

                               __________

       Printed for the use of the Committee on Homeland Security



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                                     

      Available via the World Wide Web: http://www.gpo.gov/fdsys/

                               __________


                  U.S. GOVERNMENT PRINTING OFFICE
72-233 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001







                     COMMITTEE ON HOMELAND SECURITY

                   Peter T. King, New York, Chairman
Lamar Smith, Texas                   Bennie G. Thompson, Mississippi
Daniel E. Lungren, California        Loretta Sanchez, California
Mike Rogers, Alabama                 Sheila Jackson Lee, Texas
Michael T. McCaul, Texas             Henry Cuellar, Texas
Gus M. Bilirakis, Florida            Yvette D. Clarke, New York
Paul C. Broun, Georgia               Laura Richardson, California
Candice S. Miller, Michigan          Danny K. Davis, Illinois
Tim Walberg, Michigan                Brian Higgins, New York
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois                  Cedric L. Richmond, Louisiana
Patrick Meehan, Pennsylvania         Hansen Clarke, Michigan
Ben Quayle, Arizona                  William R. Keating, Massachusetts
Scott Rigell, Virginia               Vacancy
Billy Long, Missouri                 Vacancy
Jeff Duncan, South Carolina
Tom Marino, Pennsylvania
Blake Farenthold, Texas
Mo Brooks, Alabama
            Michael J. Russell, Staff Director/Chief Counsel
               Kerry Ann Watkins, Senior Policy Director
                    Michael S. Twinchek, Chief Clerk
                I. Lanier Avant, Minority Staff Director
                                 ------                                

                SUBCOMMITTEE ON TRANSPORTATION SECURITY

                     Mike Rogers, Alabama, Chairman
Daniel E. Lungren, California        Sheila Jackson Lee, Texas
Tim Walberg, Michigan                Danny K. Davis, Illinois
Chip Cravaack, Minnesota             Jackie Speier, California
Joe Walsh, Illinois, Vice Chair      Cedric L. Richmond, Louisiana
Mo Brooks, Alabama                   Bennie G. Thompson, Mississippi 
Peter T. King, New York (Ex              (Ex Officio)
    Officio)
                     Amanda Parikh, Staff Director
                   Natalie Nixon, Deputy Chief Clerk
            Thomas McDaniels, Minority Subcommittee Director














                            C O N T E N T S

                              ----------                              
                                                                   Page

                               Statements

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security.......................................................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Transportation Security........................................     7
The Honorable Bennie G. Thompson, a Representative in Congress 
  From the State of Mississippi, and Ranking Member, Committee on 
  Homeland Security..............................................     9

                               Witnesses

Mr. Stephen Sadler, Deputy Assistant Administrator, 
  Transportation Threat Assessment and Credentialing, 
  Transportation Security Administration:
  Oral Statement.................................................    11
  Prepared Statement.............................................    13
Mr. Darrell S. Bowman, Group Leader, Advanced Systems & 
  Applications, Virginia Tech Transportation Institute:
  Oral Statement.................................................    15
  Prepared Statement.............................................    16
Ms. Jeanne M. Olivier, A.A.E., Assistant Director, Aviation 
  Security & Technology, Aviation Department, The Port Authority 
  of New York & New Jersey:
  Oral Statement.................................................    19
  Prepared Statement.............................................    21
Mr. Martin Rojas, Vice President, Security & Operations, American 
  Trucking Association:
  Oral Statement.................................................    24
  Prepared Statement.............................................    25
Mr. Randall H. Walker, Director of Aviation, Las Vegas Mccarran 
  International Airport, Clark County Department of Aviation:
  Oral Statement.................................................    28
  Prepared Statement.............................................    30

                             For the Record

The Honorable Mike Rogers, a Representative in Congress From the 
  State of Alabama, and Chairman, Subcommittee on Transportation 
  Security:
  Letter Submitted by the American Trucking Associations.........     3
  Letter Submitted by the American Association of Airport 
    Executives...................................................     3
  Letter Submitted by the Chamber of Commerce of the United 
    States of America............................................     4
  Joint Letter Submitted by the American Pyrotechnics 
    Association, the Agricultural Retailers Association, 
    Institute of Makers of Explosives, and the Fertilizer 
    Institute....................................................     5

 
             H.R. 1690, THE MODERN SECURITY CREDENTIALS ACT

                              ----------                              


                         Wednesday, May 4, 2011

             U.S. House of Representatives,
           Subcommittee on Transportation Security,
                            Committee on Homeland Security,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 2:05 p.m., in 
Room 311, Cannon House Office Building, Hon. Mike Rogers 
[Chairman of the subcommittee] presiding.
    Present: Representatives Rogers, Walberg, Cravaack, Walsh, 
Jackson Lee, Davis, Richmond, and Thompson.
    Mr. Rogers. The Committee on Homeland Security, 
Subcommittee on Transportation Security will come to order.
    The committee is meeting today to hear testimony on H.R. 
1690, The MODERN Security Credentials Act, and on-going efforts 
to streamline and eliminate redundancies in various 
transportation security credentialing regulations.
    I want to take just a moment and let the audience know that 
we have asked our panelists--we were going to have two panels--
we have asked them to combine into one, and they have 
graciously agreed to do that, and the reason being we are going 
to be called for a series of votes in about an hour and a half. 
We would be gone for 2 hours, so I didn't want the folks to be 
inconvenienced and have to wait for us to come back. So we are 
going to try to knock this out in a more timely fashion before 
that series of votes.
    I would like to welcome everybody to the subcommittee's 
legislative hearing today and thank our witnesses for being 
here.
    The subcommittee's hearing will focus on H.R. 1690, The 
MODERN Security Credentials Act, which requires the Department 
of Homeland Security to streamline and eliminate redundancies 
in various transportation security credentialing regulations. 
The bill takes a crucial step towards streamlining Government 
regulations, which we expect to result in greater cost savings 
and less red tape for our hard-working men and women who rely 
on and need these security credentials for their livelihoods.
    This is a critical issue, and in 2009, the U.S. Small 
Business Administration named redundant and duplicative 
transportation security credential regulations as one of the 
top 10 regulatory areas needing reform.
    This bill would make an important change to current law. 
First, the bill would allow for the consolidation and 
harmonization of the security threat assessment process for 
transportation workers. This harmonization would eliminate 
redundant background checks for applicants and streamline 
threat assessment procedures, which should reduce costs for the 
various credentials.
    For example, a worker who needs to acquire two different 
credentials would now only need one threat assessment. In 
addition, through streamlining this process, the Transportation 
Security Administration can realize cost savings as well. Since 
these credentialing programs are fee-based, cost savings would 
be passed onto the workers as lower fees. This legislation will 
save hard-working folks in the transportation sector money.
    I have had made it clear in this bill that TSA should not 
start taking over additional processes and functions that it is 
not currently carrying out. I strongly feel that local 
authorities in the aviation arena can more effectively and 
efficiently carry out credentialing functions such as access 
control, enrollment, and criminal history record check 
adjudication.
    For example, this bill preserves the authority of an 
airport operator to determine who has access to its own secure 
area. Furthermore, I strongly support competition among airport 
contractors to facilitate the criminal history record checks. I 
do not believe that this bill would restrict this competitive 
system in any way.
    This legislation ensures that credentialing processes 
currently carried out by the aviation facilities will not be 
taken over by the TSA, and I intend to continue working with 
stakeholders to ensure that this does not happen.
    Next, this bill would link the security identification 
display area badge security threat assessment standards to the 
TWIC, the Transportation Worker Identification Card, standards 
so that they are identical. This is essential to allow for the 
harmonization that I have just described. It also ensures that 
our transportation workers will all be subject to the same 
level of security review.
    There are vulnerabilities in all of our transportation 
systems. Whether on a truck carrying security-sensitive 
materials or a port where ships carrying liquid and natural gas 
are moored up or in an airport, we need to maintain high levels 
of security across all these venues.
    To further streamline the process and save money for truck 
drivers, this bill addresses redundant requirements that 
truckers face when having to undergo security threat assessment 
for both hazardous materials and TWIC. This bill would 
eliminate the requirement for security screening as a part of 
an HME, Hazardous Material Endorsement. It would instead 
require those truck drivers who are transporting materials that 
could have a security nexus to acquire one credential, a TWIC.
    This would provide cost savings to individual drivers who 
may carry hazardous materials such as paint or food coloring 
that does not have a real connection to security or terrorism. 
Furthermore, this bill requires DHS to ensure TWIC enrollment 
centers have flexible operating hours and that centers are in 
geographically diverse locations, helping to facilitate worker 
enrollment in the TWIC program.
    This bill has been endorsed by a number of organizations 
and industry associations. At this time, without objection, I 
would submit for the record four letters of endorsement for the 
bill.
    Hearing none, so ordered.
    [The information follows:]
         Letter Submitted by the American Trucking Associations
                                                    Washington, DC.
The Honorable Mike Rogers,
Chairman, Committee on Homeland Security, Subcommittee on 
        Transportation Security, U.S. House of Representatives, 
        Washington, DC 20515.
    Dear Chairman Rogers: I am writing to express the American Trucking 
Associations support of the MODERN Security Credentials Act. This 
legislation will bring welcome relief to trucking companies and truck 
drivers who must obtain duplicative security credentials to haul 
hazardous materials and enter port facilities.
    The MODERN Security Credentials Act recognizes that not all 
hazardous materials are weaponizable, and directs the Department of 
Homeland Security (DHS) to create a list of security-sensitive 
hazardous materials. To transport these designated materials, a driver 
would have to obtain a Transportation Workers Identification Card 
(TWIC). Currently, if a driver hauls any hazardous material that 
requires placarding, the driver is subject to a costly and time-
consuming fingerprint-based background check to obtain a hazardous 
material endorsement (HME). If that same driver needs to enter a port 
facility he must go through another identical, costly, and time-
consuming fingerprint-based background check and obtain a TWIC. By 
separating security-sensitive hazardous materials from other hazmat and 
returning the HMA to its original purpose of verifying driver safety, 
the Act will eliminate the significant burden these multiple background 
checks place on the trucking industry.
    The MODERN Security Credentials ACT also would prohibit States and 
their political subdivisions from requiring redundant background checks 
for drivers transporting security-sensitive materials, unless the State 
can demonstrate a compelling reason that a separate background check is 
necessary to ensure the safe and secure transport of such cargo. ATA 
believes this prohibition needs to be broadened to cover all hazmat so 
that States do not establish redundant background checks for hazmat 
that is not considered security-sensitive by DHS and therefore not 
subject to a Federal background check. We look forward to working with 
the Committee to make this change as the legislation proceeds to 
markup. There are a number of different States that require truck 
drivers to pay another fee, in addition to the fees assessed on the 
drivers to obtain their TWIC and HME.
    Since 2004, the trucking industry has sought legislation to address 
redundant security background checks and duplicative security 
credentials. In that time, truck drivers have incurred significant 
costs and financial burdens to undergo those multiple checks and 
security credentials. We applaud your efforts in moving this 
legislation and look forward to the swift passage of this very 
important bill.
            Sincerely,
                                          Mary B. Phillips,
     Senior Vice President, Legislative Affairs, American Trucking 
                                                      Associations.
                                 ______
                                 
   Letter Submitted by the American Association of Airport Executives
                                                       May 3, 2011.
The Honorable Mike Rogers,
Chairman, Subcommittee on Transportation Security, Committee on 
        Homeland Security, U.S. House of Representatives, Washington, 
        DC 20515.
    Dear Chairman Rogers: On behalf of the American Association of 
Airport Executives, I am writing to thank you for your leadership in 
crafting H.R. 1690, the MODERN Security Credentials Act and to offer 
our support for this important measure.
    The legislation represents a thoughtful approach to harmonizing and 
consolidating the security threat assessment (STA) process for 
transportation workers, focusing on inherently Federal vetting 
functions while preserving and protecting the important local security 
roles that airports have played in the aviation worker background 
screening process for more than two decades. We are particularly 
grateful for provisions added prior to introduction to clarify that 
airport operators should maintain all roles and responsibilities they 
currently hold, including final decisions on badge issuance and access 
rights throughout their facilities.
    As you know, the background check process for aviation workers has 
long operated successfully as a Federal/local partnership with the 
Federal Government holding sole responsibility for STAs and other 
necessary Government checks for prospective workers and with local 
airport authorities operating and managing enrollment, credentialing, 
badging, criminal history background check adjudication, and access 
control systems in accordance with strict Federal standards. The 
current system for aviation provides a critical local layer of security 
and strikes the proper balance between the airport's need for 
operational flexibility and efficiency and the Federal Government's 
need to set standards, maintain strict oversight, and perform critical 
Federal vetting functions.
    We are gratified that the MODERN Security Credentials Act seeks to 
protect the existing, successful, locally controlled credentialing and 
access control apparatus while encouraging the Department of Homeland 
Security to consolidate, harmonize, and reduce redundancies within the 
vetting processes directly under Federal control. This approach stands 
in marked contrast to efforts underway within DHS to harmonize aviation 
vetting programs with other, less mature transportation worker vetting 
programs that the Department manages, namely TWIC and the hazmat 
endorsement for trucking.
    We are concerned that current, Department-led efforts appear intent 
on establishing a highly centralized approach that would significantly 
increase the role of the Federal Government in existing airport managed 
and operated processes. We oppose such a centralized approach and are 
pleased that your legislation clearly delineates between Federal and 
local roles and responsibilities.
    While the desire to centralize and Federalize all processes for 
transportation worker vetting programs may be understandable from the 
Department's perspective, airports are concerned about Federal 
intrusion into existing processes that have worked well for decades. 
Airports are also concerned about an approach that could force them to 
help foot the bill for hundreds of millions of dollars in potential 
costs for changes that provide them with no demonstrable security or 
operational benefit. The current system in aviation operates 
efficiently and effectively at a fraction of the cost of other 
transportation vetting programs and at absolutely no cost to the 
Federal Government in contrast to TWIC, which has operated with mixed 
results and consumed hundreds of millions of dollars in Federal 
resources.
    By keeping DHS focused on improving its own vetting functions and 
limiting the expansion of the Federal Government's responsibilities in 
the aviation environment, the MODERN Security Credentials Act would, in 
our view, accelerate efforts to harmonize security processes within the 
Federal Government, limit unnecessary Federal and industry 
expenditures, and protect a system that has served airports, the 
aviation industry, and the Nation well for decades. We look forward to 
working with you on this important initiative in the weeks ahead.
            Sincerely,
                                        Charles M. Barclay,
                                                         President.
                                 ______
                                 
  Letter Submitted by the Chamber of Commerce of the United States of 
                                America
                                       Washington, DC, May 2, 2011.
The Honorable Mike Rogers,
Chairman, Committee on Homeland Security, Subcommittee on 
        Transportation Security, U.S. House of Representatives, 
        Washington, DC 20510.
    Dear Chairman Rogers: The U.S. Chamber of Commerce, the world's 
largest business federation representing the interests of more than 3 
million businesses and organizations of every size, sector, and region, 
submits this letter in support of the ``MODERN Security Credentials Act 
of 2011.'' As we seek to remove unnecessary burdens from the backs of 
American businesses, this legislation is effective in harmonizing 
redundant Government credentialing requirements.
    The Transportation Worker Identification Credential (TWIC) and the 
Hazmat Endorsement (HME) are redundant credentials administered by the 
Transportation Security Administration (TSA). Both programs query the 
same databases for criminal, immigration, and other violations, 
utilizing the same disqualifying criteria, appeal, and waiver 
processes. Yet today, transportation workers must pay $94 for a HME to 
carry hazmat, $132.50 for a TWIC to enter the ports, $50 for a FAST 
card at the border, and $27 for a Security Identification Display Area 
(SIDA) badge at each airport--a total cost of $303.50.
    The Chamber believes that the redundant fees and background checks 
of U.S. transportation workers is an unnecessary cost for businesses of 
all sizes. These sentiments are echoed by the U.S. Small Business 
Administration, which officially added the TSA's inaction in 
implementing Section 1556 to its Regulatory Review and Reform (r3) 
program's Top 10 list of most egregious regulations on small 
businesses.
    The Chamber commends your efforts to advance this legislation, and 
is encouraged by past bipartisan support on this issue.
            Sincerely,
                                           R. Bruce Josten,
                                          Executive Vice President.
                                 ______
                                 
 Joint Letter Submitted by the American Pyrotechnics Association, the 
Agricultural Retailers Association, Institute of Makers of Explosives, 
                      and the Fertilizer Institute
                                                    April 29, 2011.
The Honorable Mike D. Rogers,
Chairman, Subcommittee on Transportation Security, U.S. House of 
        Representatives, Washington, DC 20515.
The Honorable Sheila Jackson Lee,
Ranking Member, Subcommittee on Transportation Security, U.S. House of 
        Representatives, Washington, DC 20515.
    Dear Chairman Rogers and Ranking Member Jackson Lee: The 
undersigned\1\ are writing to express support for legislation to 
eliminate burdensome duplication and redundancy in the Nation's 
security threat assessment vetting and credentialing programs for 
transportation workers that provide no commensurate security 
enhancement. On May 4, 2011, the Subcommittee will hear testimony on 
H.R.------,\2\ the ``Modernizing of Documentation and Elimination of 
Redundant Identification and Security Credentials Act'' or the ``MODERN 
Security Credentials Act,'' a bill that leads the way toward 
accomplishing this objective.
---------------------------------------------------------------------------
    \1\ The American Pyrotechnics Association (APA) is the principle 
trade association representing manufacturers, importers, and 
distributors of fireworks in the United States. The APA has over 240 
member companies. Along with their subsidiaries, APA's member companies 
are responsible for 90 percent of the fireworks displayed in the United 
States. Each fireworks display produced in the United States.
    The Agricultural Retailers Association (ARA) is a not-for-profit 
trade association that advocates on behalf of America's agricultural 
retailers and distributors. ARA members provide goods and services to 
farmers and ranchers, which include fertilizer, crop protection 
chemicals, seed, crop scouting, soil testing, custom application of 
pesticides and fertilizers, and development of comprehensive nutrient 
management plans. Retail and distribution facilities are located 
throughout all 50 States and range in size from small family-held 
businesses and farmer cooperatives to large companies with multiple 
outlets.
    The Institute of Makers of Explosives (IME) is a nonprofit 
association founded in 1913 to provide information and recommendations 
concerning the safety and security of commercial explosive materials. 
IME represents U.S. manufacturers, distributors, and motor carriers of 
commercial explosive materials and oxidizers as well as other companies 
that provide related services. Millions of metric tons of high 
explosives, blasting agents, and oxidizers are consumed annually in the 
United States. These materials are essential to the U.S. economy. 
Energy production, construction, and other specialized uses begin with 
the use of commercial explosives. These products are used in every 
State and are distributed worldwide by all modes of transportation.
    The Fertilizer Institute (TFI) is the National trade association 
representing fertilizer producers, importers, wholesalers, and 
retailers. TFI's mission is to promote and protect the use of 
fertilizer from the plant where it is produced to the plants where it 
is used.
    \2\ April 27, 2011 (3:30 p.m.).
---------------------------------------------------------------------------
    The commercial explosives industry was the first private sector 
industry subject to Federal security threat assessments in the wake of 
the terrorist attacks of September 11, 2001. Since that time, Congress 
has enacted a myriad of duplicative and redundant vetting programs, 
some with credentialing requirements, that have impacted employees of 
our member companies, especially those employees who drive trucks.
    In addition to the security vetting program authorized by the Safe 
Explosives Act of 2003, employees of our members may also be subject to 
other vetting and sometimes credentialing requirements with an alphabet 
soup of acronyms--HME, TWIC, FAST, CAC, IAC, CFATS, and soon to be 
implemented ammonium nitrate rules. The majority of these programs 
require a check for criminal history, a check to establish identity, a 
check to determine legal status to work, and vetting against the 
terrorist screening database.
    In the last Congress, the House passed so-called ``SAFE Trucker'' 
legislation. This bipartisan piece of legislation proposed to allow the 
TWIC threat assessment and credential to replace the HME threat 
assessment. These two programs are currently the largest and most 
expensive transportation sector vetting and credentialing programs, and 
they have the greatest overlap.
    The MODERN Security Credentials Act encompasses the provisions of 
the SAFE Trucker legislation. This legislation provides that the TWIC 
credential and threat assessment will replace the HME threat 
assessment, for the preemption of non-Federal security background 
checks of those who transport security-sensitive materials, and for a 
task force to review the lists of disqualifying crimes to ensure that 
they are accurate indicators of terrorism security risk. Additionally, 
it gives statutory underpinning to the U.S. Department of Homeland 
Security's (DHS) regulatory effort to harmonize threat assessment 
processing and procedures across the Department's various vetting 
program, which began in 2007. This legislation is consistent with 
recommendations of the Surface Transportation Security Priority 
Assessment issued by the White House in 2010.
    There are two aspects of the bill that we urge the sponsors to 
clarify and/or strengthen:
    First, section 2 limits the ability of DHS to consolidate and 
harmonize the security threat assessment process for transportation 
workers ``to the extent possible under law.'' The duplication and 
redundancy of the various vetting and credentialing programs stem from 
various acts of Congress. For this legislation to achieve the goal to 
eliminate wasteful duplication, DHS needs statutory authority to 
supersede prior law that is the source of the duplicative vetting 
programs. Section 2 should be strengthened to supplant all existing 
Federal security threat assessments for transportation workers unless 
otherwise provided by a subsequent act of Congress.
    Second, the legislation requires new rulemaking to determine what 
hazardous materials are ``security-sensitive.'' While we acknowledge 
that not all shipments of hazardous materials currently triggering 
security threat assessments of drivers would be attractive to 
terrorists and thus ``security-sensitive,'' the legislation does not 
recognize the extensive regulatory review completed a year ago by the 
U.S. Department of Transportation (DOT) in consultation with DHS that 
establishes such a definitive list.\3\ Rather, section 2101(a) 
authorizes DHS to establish a list of ``security-sensitive materials'' 
by notice and comment rulemaking, using, as the basis for the 
rulemaking, the definition of ``security-sensitive material'' found in 
section 1501 of the Implementing Recommendations of the 9/11 Commission 
Act of 2007 (9/11 Act). By itself, the 9/11 Commission Act definition 
specifies a very limited list of materials based on consequences not 
risk. While the list can be expanded based on rulemaking, DOT has just 
accomplished that rulemaking. Additionally, we are concerned by those 
advocating a list based on ``weaponizable'' materials. We do not know 
what this means. Sugar, for example, can be used as an explosives 
precursor. Or does the term mean a material that would contribute to 
the consequences of a terrorist attack on the vehicle if released? 
Technically, all hazardous materials present some consequence when 
released. Finally, section 5(c) seems to undo the rulemaking that would 
be accomplished by the MODERN Security Credentials Act, by amending 46 
U.S.C. 70105(b)(2), which establishes the universe of individuals 
required to obtain a TWIC, to authorize TWICs for truck drivers who 
transport security-sensitive materials as that term is defined in the 
9/11 Act. In fact, section 5(c) should at least be referencing the 
rulemaking required by section 2 of the MODERN Security Credentials 
Act. Ideally, section 2 would cite to or include verbatim the DOT HM-
232F list.
---------------------------------------------------------------------------
    \3\ HM-232F, 75 FR 10974 (March 9, 2010). Based on an evaluation of 
the security threats associated with specific types and quantities of 
hazardous materials, the DOT/DHS final rule narrows the list of 
materials subject to security plan requirements and reduces associated 
regulatory costs and paperwork burden.
---------------------------------------------------------------------------
                               conclusion
    Safeguarding security-sensitive materials while in transportation 
is a top priority. Ensuring that security-sensitive materials are only 
tendered to the custody of trusted transportation workers is a key 
component of this initiative. Over the years, however, redundant 
vetting and credentialing programs for the same population of trusted 
transportation workers has become a time-consuming, costly endeavor 
with no commensurate security benefit. We believe that the MODERN 
Security Credentials Act takes important steps to eliminate needless 
overlap that wastes scarce government and private sector resources that 
could be devoted to other pressing security needs. We urge the 
Subcommittee to act favorably on this legislation.
            Respectfully,
                                             Julie Heckman,
                      President, American Pyrotechnics Association.
                                            Carmen Haworth,
         Public Policy Counsel, Agricultural Retailers Association.
                                            Cynthia Hilton,
       Executive Vice President, Institute of Makers of Explosives.
                                               Pam Guffain,
         Vice President, Member Services, The Fertilizer Institute.

    Mr. Rogers. The letters are from the American Trucking 
Association, the American Association of Airport Executives, 
the U.S. Chamber of Commerce and a joint letter from the 
American Pyrotechnics Association, the Agricultural Retailers 
Association, Institute of Makers of Explosives, and The 
Fertilizer Institute.
    During the drafting process, this language was shared for 
comment with multiple groups across the transportation sector, 
and I look forward to continuing the work on the bill in a 
bipartisan and collaborative way.
    As with almost all legislation introduced in the House, 
there is room for improvement. If there are prudent suggestions 
or changes that could improve the bill, I will gladly consider 
them as we have done with many of these groups represented in 
this room and our counterparts on the other side of the aisle.
    In fact, this is the reason we are having this hearing 
today. I want to hear from different stakeholders represented 
on how we can improve this legislation in order to further 
eliminate redundant regulations, reduce costs, and streamline 
Government procedures without reducing the necessary security 
regime that these programs provide.
    With that, the Chairman now recognizes the Ranking Member 
of the subcommittee, the gentlelady from Texas, Ms. Jackson 
Lee, for any statement that she may have.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    Before I begin my statement, let me take a moment to first 
express my concern and condolences for the people in your home 
State of Alabama and some surrounding States. Our thoughts and 
prayers are with them as they go through this very difficult 
period of recovery.
    Mr. Chairman, I would like to welcome the witnesses today 
who are testifying on the Modernizing of Documentation and 
Elimination of Redundant Identification and Security 
Credentials Act. The credentialing process for aviation and 
other transportation employees is one of the most critical 
layers of security that we have, as it determines who will have 
unescorted access to the most secure and sensitive areas at 
airports and seaports.
    For a long time I have worked on this issue, and I joined 
Congresswoman Lowey in the early years of this committee to 
discuss issues dealing with employee access to airports.
    I visited the aprons of airports. I have walked on tarmacs. 
I have visited with employees. I have watched trucks ingress 
and egress. I have visited cargo sites where inspections are 
carrying on. I have asked the intimate and intricate questions 
of how do airports work and how are we assured that all that 
are on those grounds have the responsibility but also the 
credibility and the review that gives them the access that has 
been given?
    We can see with issues such as external attacks on 
airports, meaning attacks on the perimeters, such as the issue 
in Moscow and other places, we recognize that we have some 
great challenges.
    Industry experts agree that this type of employee screening 
is one of the most useful tools in mitigating the insider 
threat of individuals who wish to do harm. The credentialing 
process for aviation and other transportation employees is one 
of the most critical layers of security that we have, as it 
determines who will have unescorted access to the most secure 
and sensitive areas at airports and seaports.
    With an issue as serious as this and a process as 
complicated as this, I am concerned that we are rushing 
legislative action for an issue that impacts many stakeholders, 
none of whom have asked for this type of legislation.
    In fact, I am told that the Transportation Trades 
Department of the AFL-CIO is opposed to this bill and that 
there are concerns being raised by the Airports Council 
International. The subcommittee's oversight in this area needs 
to continue before legislation is passed that could cost jobs 
and raise operating expenses for the economically sensitive 
transportation industry.
    We have not had a hearing on the Transportation Worker 
Identification Credential Program, the troubled biometric card 
program in use in the maritime environment. Yet this bill would 
aim to consolidate and harmonize the security threat assessment 
processes of TWIC and SIDA credentials.
    The question would be whether or not there would be an 
increased number of employees that would be reviewing this. 
There are already enormous complaints about how slow the 
process is, whether or not in fact you are able to get a TWIC 
card, how long you have to wait.
    Now with the merger, even though the term is modernized, 
consolidate, consolidate with what? Extra funding, more staff 
members, more trained individuals? Will there be a shortened 
time? What will be the benefit of modernizing with no staff and 
no resources?
    TWIC has well-documented challenges, and the bill we are 
discussing today does nothing to address them. Instead, it 
would seem that this legislation is potentially seeking to 
overhaul a system that is not broken, except for the fact that 
we need to improve its implementation. In the process, we may 
place increased costs on the transportation sector when it is 
already struggling with record fuel prices.
    Mr. Chairman, a TWIC card costs $132. Would consolidating 
and harmonizing mean an airport's SIDA credential, which 
currently costs $29, would go up by $100?
    How will adding new aviation-related disqualifying offenses 
impact the employment of truckers and port workers? Will it 
have a disproportionate affect on minorities and small 
businesses? What assurances do we have that this legislation, 
if enacted, would not put people out of work just when our 
unemployment picture is finally turning around?
    My understanding is that the aviation component will then 
intrude and impact the employment or the process for truckers 
and port workers, using aviation standards. What does that 
mean? That the truckers and constituents of mine who have been 
able to rehabilitate their lives, secure a TWIC card and work 
at places that are a little bit different from airports are now 
going to be knocked out of work?
    I don't think any of us knows the answers to these 
questions, which is why I think we should first do no harm and 
not pass a bill that would actually make us and our 
transportation system less safe.
    I would like to continue working with you, Mr. Chairman, on 
this issue as we move forward in drafting a transportation 
security authorization bill, which I think is the appropriate 
vehicle for major revisions to existing policies and practices.
    This bill before us today goes way beyond eliminating 
redundant background checks and credentials for transportation 
workers, which was a key component of the SAFE Truckers Act, 
which I support and which is contained in the second portion of 
this bill.
    That language has been vetted with industry and Government 
officials, and it should be the focus of what we are discussing 
today. Accordingly, I would like to propose on the record that 
this subcommittee move the SAFE Trucker Act alone.
    Finally, let me express my concern with the fact that the 
final version of this bill was never formally transmitted to me 
and other Members of this panel. Before moving on legislation 
that could dramatically impact the employment of millions of 
Americans, we have the responsibility to give thoughtful 
consideration to this legislation.
    The failure to distribute the final text severely limits 
our ability to fully vet this bill. I believe the American 
public wants us to focus on critical issues like mass transit 
security, passenger screening protocols for body scanners and 
pat-downs and rising international security standards, in light 
of the demise of Osama bin Laden and the collateral damage that 
may be resulting in terrorist acts, all of which I hope we 
address in an authorization bill for TSA.
    I look forward, Mr. Chairman, in working with you, and I 
know that you have great concerns on the security of this 
Nation. You have shown that, and therefore, I hope that you 
will listen to my comments in the spirit that they have been 
given, and that is that we will continue to work together and 
fix problems that can be fixed but be assured that issues that 
are detrimental are addressed as well.
    With that, Mr. Chairman, thank you and I yield back.
    Mr. Rogers. The Chairman thanks the gentlelady and the 
Chairman now recognizes the Ranking Member of the full 
committee, Mr. Thompson, for any statement that he may have.
    Mr. Thompson. Thank you very much, Mr. Chairman. I would 
also like to echo your words as well as that of the Ranking 
Member in welcoming our witnesses to this hearing. I look 
forward to hearing from each of you on the potential impact of 
the proposed bill and how it can be improved.
    At a time when our economy is still recovering, 
unemployment remains stubbornly high and public anxiety over 
TSA's screening practices is at an all-time high, it is 
interesting to note that the bill we are considering today, at 
our first legislative hearing this Congress, addresses none of 
these concerns.
    Indeed, the draft bill includes a sweeping authorization 
for TSA to change the transportation worker credentialing 
process. Without question, TSA's credentialing process deserves 
our attention but in a way that provides enhanced security, 
fosters efficiency and lessens, not increases, the burden 
placed on workers. That is why I recently introduced H.R. 1105, 
the Transitioning with an Improved Credential Program Act.
    Unlike the legislation before us today, my bill would 
provide certainty to transportation workers and stakeholders 
alike by tackling a well-documented challenge within a TWIC 
program.
    I reviewed the bill and found myself asking, what exactly 
is modern about the The MODERN Security Credentials Act? It 
would establish a two-tiered system that permits airports to 
deny workers a SIDA badge, even after successfully going 
through the TSA waiver process. Is that modern? It does nothing 
to move us closer to the adoption of biometric standards for 
credentials. Is that modern?
    It alters the list of disqualifying crimes for 
transportation workers seeking security credentials without 
justification for the relevance of the crime.
    Is that modern? As a committee, we frequently question DHS 
and its components on lessons learned from previous experiences 
and how they will be used to inform future actions. Apparently, 
we do not intend to heed our own advice.
    As some of you will recall, it was not that long ago that 
TSA overreached in a rulemaking for security in general 
aviation. Ultimately, Congress was compelled to intervene and 
rein in TSA. None of us wants a repeat of that experience.
    Further, even without the passage of this bill, TSA has the 
authority to issue a rulemaking on credentialing. In fact, we 
have learned that there is a proposal pending right at this 
moment at OMB. Will we not risk short-circuiting the OMB 
vetting process by interceding with this bill and granting TSA 
a blanket go-ahead?
    Outreach to industry stakeholders and workers is critical 
to ensuring that the potential impact of consolidating fees or 
vetting processes, or even credentialing programs, are well 
understood. Indeed, in prepared testimony, our witness 
representing the Airports Council International states that the 
bill includes conflicting requirements that will cause 
unintended and unnecessary operational challenges and impose 
additional costs for airports.
    I think it is a safe bet that any additional costs incurred 
because of these new regulations will be passed on to the 
transportation workers and their employees. What will they get 
for those additional fees? More security, more efficiency?
    That said, Mr. Chairman, I support the second half of the 
bill, the so-called SAFE Trucker legislation, which the House 
approved as part of the 2009 TSA authorization bill. It takes a 
common-sense approach to consolidation.
    Let me close by expressing my concern about the process 
surrounding this hearing. I applaud the witnesses, or at least 
most of them, on their timely submission of prepared remarks. 
This was a serious feat, given that the majority did not 
circulate draft text to all subcommittee Members and witnesses 
in advance of the hearing.
    With that, Mr. Chairman, I yield back the balance of the 
time.
    Mr. Rogers. I thank the gentleman.
    I do want to clear up; I don't know what happened. I don't 
withhold bills. We first gave the draft of this bill to the 
Minority on the 6th of April, a month ago, and the final 
version over a week ago, on April 27. So I don't know why it 
didn't get to the Members because it was submitted to staff. I 
would also offer----
    Mr. Thompson. We got an answer for you.
    Mr. Rogers. Tell me.
    Mr. Thompson. Clerk, can you tell us about the distribution 
of the bill?
    Mr. Rogers. That is what I said, staff. I don't know about 
any e-mails--but we gave it to your staff.
    My point is simply this: I would never do that to anybody, 
and I am going to make sure in the future we don't have this 
kind of miscommunication, because that is just not the way to 
do business, and I wouldn't do that.
    Mr. Thompson. I absolutely appreciate that, and I know you 
wouldn't. But, generally, the clerk will formally transmit the 
information to us.
    Mr. Rogers. Yes. They said something happened with the e-
mail that was a problem.
    Mr. Thompson. All right.
    Mr. Rogers. But, anyway, we are going to fix that.
    But I also want to state, thinking about Ms. Jackson Lee's 
comments, the whole reason we are holding this hearing is to 
try to get the answers to the questions you raised. I mean, 
this is just a process in the making; it is not a done deal. So 
that thought is why we are doing this. I think you have raised 
some legitimate concerns, and I want the answers as well.
    All right. Having said that, the Chairman is now happy to 
welcome our witnesses. We are very fortunate to have some 
really classy folks who know what they are doing and hopefully 
can help answer some of these questions.
    Our first witness, Mr. Steven Sadler, is TSA's Deputy 
Assistant Administrator for Transportation Threat Assessment 
and Credentialing.
    Our second witness, Mr. Darrell Bowman, is the Group Leader 
for Advanced Systems & Applications at Virginia Tech 
Transportation Institute, and he is the lead author of the 
transportation research report entitled, ``Consolidated 
Security Credentials for Persons Who Transport Hazardous 
Materials.''
    So with that, the Chairman now recognizes Mr. Sadler for 5 
minutes to summarize your statement.

 STATEMENT OF STEPHEN SADLER, DEPUTY ASSISTANT ADMINISTRATOR, 
      TRANSPORTATION THREAT ASSESSMENT AND CREDENTIALING, 
             TRANSPORTATION SECURITY ADMINISTRATION

    Mr. Sadler. Thank you, sir. Chairman Rogers, Ranking Member 
Jackson Lee and distinguished Members of the subcommittee, 
thank you for the opportunity to testify today about the 
Transportation Security Administration's efforts to harmonize 
security threat assessments across all modes of transportation.
    TSA currently administers security threat assessment 
programs for 28 transportation worker populations, covering 
approximately 15 million individuals. Differing statutory 
specifications, what constitutes a threat assessment, and a 
lack of uniformity among user fees account for part of the 
current incapability. To implement comparability across a wider 
spectrum, TSA is working on a rulemaking that will further 
harmonize threat assessments, the associated redress process 
and user fees across modes of transportation, which TSA 
conducts vetting.
    This rule will improve the quality of data that TSA uses to 
conduct vetting, thereby reducing applicant processing time, 
eliminating redundancy by reducing the need for multiple 
background checks, allowing workers to use a single assessment 
for multiple purposes, offsetting costs for user fees, as 
directed by Congress, and providing more robust redress 
processes. The rule will also establish standardized enrollment 
procedures and improve identity verification.
    However, TSA cannot fully implement these improvements and 
efficiencies in the credentialing process through a regulatory 
change alone. New legislation is needed to amend statutory 
security threat assessment requirements for aviation workers to 
mirror the statutory requirements for other populations.
    The current law governing aviation workers was enacted 
prior to 9/11 and contains procedures that differ from the 
newer standards for other programs. These statutory differences 
prevent harmonization and cannot be changed to rulemaking. We 
believe the standards Congress subsequently enacted for the 
TWIC program support a more thorough threat assessment, thereby 
enhancing security and increasing fairness through the redress 
process.
    The harmonization rule will have little effect on whose 
physical credentials are required for certain privileges or 
access to areas of transportation facilities. TSA believes that 
the regulated entity is in the best position to determining 
credentialing access control requirements.
    Although TSA currently conducts background checks on 28 
populations with varying degrees of overlap, TSA issues a 
physical credential to TWIC only for workers on certain 
maritime vessels and facilities and is required by law to do 
so.
    With respect to other populations subject to vetting, TSA 
provides the results of the assessment to the entity that 
actually grants the access or privilege. In many cases, these 
entities issue their own credentials generally after the 
individual meets additional competency and suitability 
requirements.
    For example, airport authorities that credential airport 
workers and States that license commercial hazmat drivers rely 
on TSA only for the assessment but not for issuing the 
credential or license. Under the new rules, these 
responsibilities would not change, since transportation 
facilities need to have their own standards for suitability and 
access control based on their specific operational needs, 
business and statutory requirements, and availability of 
resources.
    To enable TSA to fulfill transportation security vetting in 
a consistent, comparable way, TSA plans to assume the 
adjudication of criminal background checks for airport and 
aircraft operator workers, which are currently performed by the 
airports and airlines.
    For all other populations, TSA currently adjudicates 
criminal history information, along with the other information 
that comprises a security threat assessment. This will allow 
TSA to assure standardized processes and criteria for 
conducting and adjudicating security threat assessments, 
including criminal history record information.
    TSA does not however, intend to assume responsibility for 
worker suitability or access control decisions from airports 
and airlines and will continue to send a criminal history 
record information to any airport that requests it for purposes 
of making its own suitability or access control determinations.
    Mr. Chairman, Ranking Member Jackson Lee, thank you for the 
opportunity to appear before you today. The harmonization of 
threat assessments through regulatory and statutory changes 
will allow TSA to fulfill its mission with greater efficiency 
and effectiveness. I look forward to working with you towards 
this goal in answering your questions.
    [The statement of Mr. Sadler follows:]
                  Prepared Statement of Stephen Sadler
                              May 4, 2011
    Good morning Chairman Rogers, Ranking Member Jackson Lee, and 
distinguished Members of the subcommittee. Thank you for the 
opportunity to testify today about the Transportation Security 
Administration's (TSA) effort to harmonize security threat assessments 
(STA) across all modes of transportation.
    We share the goal of Congress and stakeholders that STA programs be 
harmonized to alleviate the burden and inconvenience placed on 
individuals by the need to obtain multiple STAs, to the extent legally 
possible. TSA currently administers STA programs for 28 transportation 
worker populations, covering approximately 15 million individuals 
across the transportation sectors. Differing statutory specifications 
for what constitutes an STA and a lack of uniformity among user fees 
account for part of the current incompatibility between STAs.
    TSA has already established comparability standards and identified 
comparable STAs to reduce the burden on individuals that are required 
to have multiple STAs because of the nature of their work. For example, 
individuals who have had successful background checks for purposes of 
the U.S. Coast Guard Merchant Mariner Credential, U.S. Customs and 
Border Protection Free and Secure Trade (FAST) card, or State 
commercial drivers license hazardous materials endorsements (HMEs) are 
entitled to a reduced fee when applying for a Transportation Worker 
Identification Credential (TWIC). Also, the TWIC and HME background 
checks may be utilized for many workers in the air cargo sector. 
However, statutory, regulatory and infrastructure changes are necessary 
to implement comparability across a wider number of background checks 
and provide ease of use for the individual transportation worker.
    To implement comparability across a wider spectrum, TSA is working 
on a rulemaking that will further harmonize STAs, redress, and user 
fees for individuals across modes of transportation in which TSA 
conducts vetting, to the extent possible under current law. In addition 
to addressing individuals who are already subject to STA rules, such as 
those in the aviation and maritime sectors and commercial drivers 
transporting hazardous materials, the rule will implement requirements 
of the Implementing Recommendations of the 9/11 Commission Act of 2007 
to conduct STAs on additional populations including certain freight 
rail, passenger rail, and public transportation, and over-the-road-bus 
workers--totaling an estimated 12 million workers over 5 years.
    This rule will enhance the STA process in several ways. It will 
improve the quality of data that TSA uses to conduct vetting, thereby 
reducing applicant processing time; eliminate redundancy by reducing 
the need for multiple background checks; facilitate STA ``portability'' 
for individuals who work in several modes of transportation or change 
jobs by permitting workers to use a single STA for multiple purposes; 
offset the costs of STAs through user fees as directed by Congress; 
more equitably apportion the costs of STAs across all users by 
including populations that are currently not required to pay a fee for 
vetting; and provide more robust redress for many workers who do not 
currently have access to appeals, waivers, and/or an administrative law 
judge's review. The rule will also establish standardized enrollment 
procedures and improve identity verification through new standards.
    For example, a driver transporting cargo destined for an aircraft 
and screened in accordance with TSA security requirements must have an 
STA. That driver may also transport cargo from secure areas of a 
regulated maritime facility, or transport hazardous materials, which 
also require that he or she have an STA. Instead of applying for 
multiple STAs, each of which is subject to particular, and possibly 
conflicting, statutory, and regulatory standards and procedures, as is 
the case today, this individual would only require a single STA to meet 
the TSA background check requirement for all of these activities.
    However, TSA cannot fully implement these improvements and 
efficiencies in the credentialing process through regulatory change 
alone. New legislation is needed to amend statutory STA requirements 
for aviation workers to mirror the statutory STA requirements for other 
populations. The current law governing aviation workers was enacted 
prior to 9/11 and contains procedures that differ from the newer 
standards for other programs. These statutory differences prevent 
harmonization and cannot be changed through rulemaking. We believe the 
standards Congress subsequently enacted for the TWIC program in the 
Maritime Transportation Security Act of 2002 support a more thorough 
STA, thereby enhancing security, and increasing fairness through the 
waiver process. For example, in the TWIC program, certain felony 
convictions are disqualifying if the conviction occurred within 7 
years, or if release from prison occurred within 5 years, of the date 
of application. In the aviation sector, certain misdemeanors and 
felonies are disqualifying if the conviction occurred within the 
preceding 10 years, and there is no consideration of when the applicant 
was released from incarceration. These types of incongruities need to 
be harmonized.
    TSA is also updating its information technology infrastructure in 
order to improve the services provided to transportation sector 
workers. Whereas the current infrastructure is not structured to 
support portable and reusable STAs absent substantial investment and 
costs, the TTAC Infrastructure Modernization (TIM) system will provide 
an integrated, end-to-end solution to manage identities, credentials, 
and assessment results for millions of transportation sector workers. 
TIM will align, integrate, and modernize current TTAC processes, 
services, and infrastructure allowing TSA to conduct mission 
capabilities in a more effective and efficient manner. TIM will be 
implemented on an incremental basis, allowing TSA to benefit from 
modernization's capabilities as they become available.
    The harmonization rule will have little effect on who issues 
physical credentials required for certain privileges or access to areas 
of transportation facilities. TSA believes that the regulated entity is 
in the best position to determine credentialing and access control 
requirements. Although TSA currently conducts background checks on 28 
populations with varying degrees of overlap, TSA issues a physical 
credential, the TWIC, only for workers on certain maritime vessels and 
facilities and is required by law to do so. With respect to other 
populations subject to vetting, TSA provides the results of the STA to 
the entity that actually grants the access or privilege. In many cases, 
these entities issue their own credential, generally after the 
individual meets additional competency and suitability requirements. 
For example, while TSA conducts STAs on Federal Aviation Administration 
(FAA) certificate holders, it is the FAA that issues the certificate. 
Similarly, airport authorities that credential airport workers and 
States that license commercial hazmat drivers rely on TSA only for the 
STA and not for issuing the credential or license. Under the new rule, 
these responsibilities would not change since transportation facilities 
need to have their own standards for suitability and access control 
based on their specific operational needs, business and statutory 
requirements, and availability of resources.
    One of TSA's critical missions is to apply risk-based threat 
assessment methodologies in order to identify known or suspected 
terrorist threats working in, or seeking access to, the Nation's 
transportation system and critical infrastructure to prevent terrorism 
or criminal acts. To enable TSA to fulfill this transportation security 
vetting in a consistent, comparable way, TSA plans to assume the 
adjudication of criminal background checks for airport and aircraft 
operator workers, which are currently performed by the airports and 
airlines. This will allow TSA to assure standardized processes and 
criteria for conducting and adjudicating STAs, including criminal 
history record information. TSA does not, however, intend to assume 
responsibility for worker suitability or access control decisions from 
airports and airlines and will continue to send criminal history record 
information to any airport that requests it for purposes of making its 
own suitability or access control determinations.
    Mr. Chairman, Ranking Member Jackson Lee, I thank you for the 
opportunity to appear before you today. The harmonization of STAs 
through regulatory and statutory changes will allow TSA to fulfill its 
mission with greater efficiency and effectiveness. I look forward to 
working with you toward this goal and answering your questions.

    Mr. Rogers. Thank you, sir.
    The Chairman would now recognize Mr. Bowman.

STATEMENT OF DARRELL S. BOWMAN, GROUP LEADER, ADVANCED SYSTEMS 
     & APPLICATIONS, VIRGINIA TECH TRANSPORTATION INSTITUTE

    Mr. Bowman. Thank you, Mr. Chairman.
    Chairman Rogers, Ranking Member Jackson Lee, Members of the 
Transportation Security Subcommittee and staff. Thank you for 
the opportunity to testify before you today on a very important 
topic, the MODERN Security Credentials Act.
    I am hopeful that my testimony will give you a unique and 
valuable perspective as you weigh the important policy 
decisions surrounding this matter. My name is Darrell Bowman, 
and I am a senior researcher at the Virginia Tech 
Transportation Institute with more than 15 years of 
transportation research experience.
    I am here today to talk about pertinent findings from our 
recent preliminary study, HMCRP-HM-08, ``Consolidated Security 
Credential for Persons Who Transport Hazardous Material.'' This 
study evaluated the hazardous material transportation worker 
credentialing system to identify duplicative elements and 
redundant costs.
    The current hazardous material security credential system 
requires workers to have a variety of security credentials as 
they move through the hazardous material transportation 
logistics change. Each credential has costs, both monetarily 
and time to acquire, resulting in redundant cost and additional 
time required by both the credentialing agencies and the 
credential applicants. These costs provide a strong incentive 
to evaluate opportunities for consolidation within the 
hazardous material security credentialing system.
    The following discussion focuses on three important 
findings pertinent to today's topic of the hearing.
    First, the most promising initial step appears to be the 
consolidation of security threat assessments. There is strong 
evidence that the security threat assessments, which include 
background checks for several security credentials, could be 
consolidated and still remain applicable across transportation 
modes. In some cases, there are minor variations of how these 
processes are completed or which databases are checked.
    However, the overall processes are similar. More 
importantly, the objective of these background checks is the 
same for all security credentials. A system where security 
threat assessments are standardized would increase efficiency 
and likely result in a reduced cost.
    The second pertinent finding is the inconsistencies and 
disqualifying offenses for security credentials, creating the 
need for a harmonized set of disqualifying offenses. 
Consolidation of security credentials would require merging 
disqualifying offenses from various credentials, creating a 
standard threshold to which all applicants would be held 
accountable. However, agencies must decide to the degree which 
the disqualifying offenses should be harmonized to ensure that 
the applicants are appropriately vetting, while not excluding 
potentially eligible workers.
    The third pertinent finding is the need to strike a balance 
between the level of security and the user burden through the 
inclusion of broad stakeholder input. While there is a clear 
need for a secure hazardous material transportation system, 
there is a competing need to minimize user burden, a complete 
and effective security credentialing system can only be 
developed with input from hazardous materials transportation 
stakeholders, including the credential holders, the 
administrators and other involved parties.
    To conclude, the research suggests that consolidation of 
security threat assessments could be an immediate solution for 
the result--which will result in decreased costs, reduced time 
burdens for stakeholders and elimination of redundancies. Its 
success would require a standardization of the disqualifying 
offenses and is dependent on the input of stakeholders at all 
levels.
    This final report is now in the National Academies' 
Transportation Research Board editorial process and will be 
published later this year as ``Hazardous Material Cooperative 
Research Program, Report 6, Feasibility of a Consolidated 
Security Credential for Persons who Transport Hazardous 
Material.''
    Again, thank you very much for the opportunity to testify 
before you today on this important matter.
    I will be happy to answer any questions you have regarding 
these findings.
    [The statement of Mr. Bowman follows:]
                Prepared Statement of Darrell S. Bowman
                              May 4, 2011
    Chairman Rogers, Ranking Member Jackson Lee, Members of the 
Transportation Security Subcommittee and staff, thank you for the 
opportunity to testify before you today on a very important topic: 
``The MODERN Security Credentials Act.'' I am hopeful that my testimony 
will give you a unique and valuable perspective as you weigh the 
important policy decisions surrounding this matter.
    My name is Darrell Bowman, and I am a senior researcher at the 
Virginia Tech Transportation Institute. In this position, I currently 
serve as Group Leader for the Advanced Systems & Applications Group 
within the Institute's Center for Truck and Bus Safety. I have more 
than 15 years of experience as a researcher in the areas of 
transportation safety and security. My research experience includes 
various projects related to the safe and secure transportation of 
hazardous materials, the development and testing of advanced commercial 
vehicle information/safety systems, and the improved comfort of 
occupants through enhanced vehicle component designs.
    I am here today to discuss pertinent findings from our recent 
study, HM-08, Consolidated Security Credential for Persons Who 
Transport Hazardous Materials, which my group completed for the 
Hazardous Materials Cooperative Research Program (HMCRP) of the 
National Academies' Transportation Research Board. This project ended 
in February of this year (2011). The final report has been accepted by 
the HMCRP HM-08 panel and approved for publication by the Chair of the 
Subcommittee for National Research Council Oversight. This final report 
is now in the editorial process, and will be published later this year 
as Hazardous Materials Cooperative Research Program (HMCRP) Report 6, 
Feasibility of a Consolidated Security Credential for Persons who 
Transport Hazardous Materials. It is important to note that this HMCRP 
project was not intended to provide policy recommendations to the 
Federal Government; instead, it provides fact-finding and policy 
analysis.
    This study evaluated the hazardous materials (HazMat) 
transportation worker credentialing system to identify duplicative 
elements and redundant costs. The research characterized the 
application elements, the acquisition process, and the physical 
characteristics for each identified credential. The key outcome of the 
project was to determine the feasibility of consolidating many or all 
of the existing local, State, and Federal credentials, necessary under 
current regulations and policies, into one credential for all 
transportation modes that is cost-effective while maintaining an equal 
or greater level of security and safety.
                               background
    According to Transportation Research Board Special Report 283, the 
U.S. Department of Transportation (U.S. DOT) has estimated that about 
817,000 shipments consisting of 5.4 million tons of HazMat are made 
daily in the United States, which would total nearly 300 million 
shipments and 2 billion tons of hazardous cargo per year.\1\ By its 
risky nature, the safekeeping of HazMat in transit is paramount to the 
safety and security of people everywhere. Vetting the personnel working 
with and around HazMat through a credentialing process is essential for 
maintaining the security of the transported materials as well as for 
ensuring the safety of the general public.
---------------------------------------------------------------------------
    \1\ http://books.nap.edu/openbook.php?record_id=11198&page=11.
---------------------------------------------------------------------------
    The security of the Nation's HazMat freight in all transportation 
modes relies on a layered, multi-faceted security program. This 
comprehensive system is a constant monitor of the many facilities, 
vehicles, and workers involved in HazMat transportation. One important 
part of this comprehensive security system is worker credentialing. 
Security credentials play an important role by vetting the individual 
credential holder, and communicating pertinent information for facility 
access control.
    While the current credentialing program is comprehensive across all 
transportation modes, some consider the U.S. credentialing process to 
be lacking a coordinated vision and failing to recognize the multimodal 
and intermodal nature of the transportation sector.\2\ This disjointed 
vision has created a fragmented security credential system that 
requires workers to possess various security credentials as they move 
through the HazMat transportation logistics chain. Each credential has 
costs, both monetarily and in time to acquire, resulting in duplicative 
costs and additional time required for both the credentialing agencies 
and the credential applicants. These costs provide strong incentive to 
evaluate opportunities for consolidation within the HazMat security 
credentialing system.
---------------------------------------------------------------------------
    \2\ http://www.truckline.com/Newsroom/ATA%20Comments%20Filed/
ATA%20R3%20TWIC%-
20Petition.pdf.
---------------------------------------------------------------------------
                           pertinent findings
    While the study report provided a detailed review of the current 
HazMat credentialing system, the following discussion focuses on three 
important findings pertinent to the topic of today's hearing.
    First, the most promising initial step appears to be the 
consolidation of security threat assessments.
    There is strong evidence that the security threat assessments, 
which include background checks, for several security credentials could 
be consolidated and still remain applicable across all transportation 
modes. Examples of these security credentials include the 
Transportation Worker Identification Credential (TWIC), Commercial 
Driver's License--Hazardous Materials Endorsement (CDL-HME), Security 
Identification Display Area (SIDA) badge, Free and Secure Trade (FAST) 
card, NEXUS card, Secure Electronic Network for Travelers Rapid 
Inspection (SENTRI) card, Merchant Mariner's Credential (MMC), Merchant 
Mariner's Document (MMD), United States Postal Service (USPS) 
credential, Common Access Card (CAC), and the U.S. Passport.
    Ten of these 11 security credentials identified shared both a 
fingerprint-based background check (all but the Passport) and a name-
based background check (all but the USPS credential). The fingerprint-
based background check is performed by the Federal Bureau of 
Investigation (FBI) using the National Crime Information Center (NCIC). 
Regardless of the issuing agency, the FBI performs this portion of the 
investigation and then provides the relevant data back to the issuing 
agency (or adjudicating organization). A name-based search of relevant 
databases includes a criminal history check (e.g., the U.S. Passport), 
and a review of the Terror Watch List (e.g., TWIC, MMC, and HME) which 
is also maintained by the FBI. The MMD and MMC require a drug test as 
part of the application process, and results of the test are included 
in the adjudication process. A review of the National Driver Register 
is required for the MMD, MMC, and USPS credentials. Finally, an 
interview with issuing agency personnel is required for the three U.S. 
Customs and Border Protection-issued credentials (FAST, NEXUS, and 
SENTRI).
    The key difference for many of the credentials is the process of 
adjudication. Each issuing agency receives the results of the security 
threat assessments and determines the applicant's eligibility for the 
credential based on agency-specific disqualifying offenses. One 
exception would be the issuance of the HME by the individual States. In 
this instance, the Transportation Security Administration (TSA) 
provides the applicant's eligibility to the individual States.
    In some cases there are minor variations in how these processes are 
completed or which databases are checked; however, the overall 
processes are similar. More importantly, the objective of these 
security threat assessments (i.e., identifying any disqualifying 
offenses) is the same for all credentials. The consolidation of the 
security threat assessments would deal largely with the application 
process, and would be transparent to the end user.
    The need for a harmonized security threat assessment was supported 
by comments from actual HazMat security credential holders while 
completing the project's on-line questionnaire. Examples of comments 
related to security threat assessments include:
  <bullet> ``Why so many background checks? Can't these agencies talk 
        to one another? Who gets the money? Why $83 for one check and 
        $132 for TWIC and $25 for TSA? Why isn't one background check 
        enough?''
  <bullet> ``You have to go to [a] special place to get fingerprints 
        done rather than [a] local law enforcement office. Our place is 
        about 1.5 hours away which is not very efficient.''
    A system where security threat assessments are standardized would 
increase efficiency and likely result in reduced costs. Multi-agency 
data sharing could also streamline the process for all stakeholders. 
This harmonized system would require that the background investigation 
results of an initial credential application be applicable to a 
subsequent credential application. As is currently the case with the 
TWIC, it would require the expiration of any subsequent credentials 
(e.g., CDL-HME, FAST, MMD, and MML) to coincide with the expiration of 
the first credential. That is, if an applicant is issued a TWIC in 
2010, and then applies for a FAST card in 2012 using the security 
threat assessment from the TWIC application, the FAST card would also 
expire on the TWIC expiration date of 2015. Initially, this could cause 
some issues with increased renewal processing demands due to non-
standard renewal periods. However, over time this should save money as 
alignment and efficiency occur.
    The second pertinent finding is the inconsistency in disqualifying 
offenses for security credentials, creating the need for a harmonized 
set of disqualifying offenses.
    Disqualifying offenses are those offenses that would bar an 
applicant from qualifying for a security credential. In many cases, 
these are specific criminal violations. In some cases, the 
disqualifying offenses are related to monetary infractions, applicant 
flight risk, or suspicion of an applicant based on intelligence 
information.
    Currently, the various security credentials have disqualifying 
offenses with differing nomenclatures and intents, which applicants 
must satisfy. Consolidation of security credentials would necessitate 
merging disqualifying offenses, creating a standardized threshold to 
which all applicants would be held accountable. However, there are 
several important factors that need to be considered when harmonizing 
the disqualifying offenses, two of which are:
  <bullet> A highly restrictive harmonization of disqualifying offenses 
        could potentially limit the applicant pool, thus reducing the 
        qualified labor force.
  <bullet> Conversely, the least restrictive set of disqualifying 
        offenses would likely lower the overall screening effectiveness 
        of the security threat assessment, but increase the applicant 
        pool sufficiently to handle labor demand.
    To illustrate this balance of harmonization, imagine a fisherman 
mending his nets. He can make the size of the nets' openings so small 
as to catch all fish--both wanted and unwanted species--or so large 
that no fish are caught at all. Like the fisherman, agencies must 
decide on the degree to which the disqualifying offenses should be 
harmonized to balance the security needs (i.e., applicants are 
appropriately vetted) of the HazMat transportation system with worker 
eligibility (i.e., not excluding potentially qualified workers).
    The third pertinent finding is the necessity to strike a balance 
between level of security and user burden through inclusion of broad 
stakeholder input.
    The research results revealed the complexities of the existing 
HazMat credentialing system through the identification of: (i) Multiple 
security credentials, each with its own specific purpose, and (ii) 
system redundancies such as vetting processes, costs, and time. While 
there is a clear need for a secure HazMat transportation system, there 
is a competing need to minimize user burden. A complete and effective 
security credentialing system can only be developed with input from 
HazMat transportation stakeholders, including end-users, 
administrators, and other involved parties.
                              conclusions
    The research suggests that consolidation of security threat 
assessments could be an immediate solution that will result in 
decreased costs, reduced time burdens for stakeholders, and the 
elimination of redundancies. The majority of the security credentials 
identified for transporting HazMat require very similar background 
investigations. Through data-sharing agreements and standardization of 
the adjudication process, a streamlined background investigation for 
these credentials could be achieved. This consolidation would require a 
standardization of the disqualifying offenses, which must be performed 
to maintain each security credential's intended function as well as 
balance the screening effectiveness with the qualified labor pool. 
Finally, the success of consolidating processes within the HazMat 
credentialing system is dependent on the input of stakeholders at all 
levels.
    As stated, this final report is now in the editorial process, and 
will be published later this year as Hazardous Materials Cooperative 
Research Program (HMCRP) Report 6, Feasibility of a Consolidated 
Security Credential for Persons who Transport Hazardous Materials.
    Again, thank you very much for giving me the opportunity to testify 
before you on this important matter. I will be happy to answer any 
questions you have regarding these findings.

    Mr. Rogers. Thank you, Mr. Bowman.
    The Chairman now recognizes Ms. Jeanne Olivier of the Port 
Authority of New York and New Jersey. She is here representing 
the American Association of Airport Executives.
    Welcome.

  STATEMENT OF JEANNE M. OLIVIER, A.A.E., ASSISTANT DIRECTOR, 
 AVIATION SECURITY & TECHNOLOGY, AVIATION DEPARTMENT, THE PORT 
               AUTHORITY OF NEW YORK & NEW JERSEY

    Ms. Olivier. Thank you, Mr. Chairman, Ranking Member 
Jackson Lee, and Members of the committee.
    I appreciate the opportunity to be here on behalf of the 
American Association of Airport Executives to discuss The 
MODERN Security Credentials Act, legislation that AAAE is 
pleased to support as a means of preserving and protecting the 
important local role that airports play in aviation security.
    I am active in AAAE through my work with the Port Authority 
of New York and New Jersey, where I oversee security operations 
through the Port Authority's five airports. I currently serve 
as vice chair of AAAE's Security Committee and as the chair of 
the basic consortium, an airport-led effort to create a 
biometric base solution for airport badging and access control.
    I want to begin by thanking you, Chairman Rogers, and your 
staff for the opportunity afforded to AAAE and other groups in 
recent weeks to offer input on the legislation. The legislation 
recognizes the critical local role that airports play in 
enhancing security, and AAAE appreciates provisions included in 
the bill that ensure airport operators maintain important 
security functions and responsibilities they have held for 
decades, including final decisions on badge issuance and access 
rights throughout their facilities.
    The background check process for aviation workers has long 
operated successfully as a Federal local partnership, with the 
Federal Government holding sole responsibility for security 
threat assessments and other necessary Federal checks for 
prospective workers. With local airport authorities operating 
and managing worker enrollment, credentialing, badging, 
criminal history background check adjudication and axis control 
systems in accordance with strict Federal standards.
    The current system for aviation ensures the highest level 
of security by combining the unique local experience, 
expertise, and knowledge with Federal standardization, 
oversight, and vetting assets. Local involvement provides a 
critical layer of security and gives airports the operational 
control they require to ensure that qualified employees receive 
the credentials they need to work in the airport environment.
    AAAE is gratified that The MODERN Security Credentials Act 
seeks to protect the existing airport security functions while 
encouraging DHS to consolidate, harmonize, and reduce 
redundancies within the vetting processes directly under 
Federal control.
    The approach reflected in the legislation stands in marked 
contrast to efforts under way within DHS that appear intent on 
establishing a highly centralized approach in aviation that 
would parallel what exists at ports with the TWIC program.
    Under the TWIC model, the Federal Government or its 
contractors are responsible for worker enrollment, applicant 
vetting, and credential issuance. The early results of TWIC 
have been uneven at best, despite significant Federal 
investments. The existing system in aviation works extremely 
well and operates at low cost to the industry and at no cost to 
the Federal Government.
    Airport executives oppose any move to shift critical local 
functions in aviation to the Federal Government and believe 
that such a move would diminish security by eliminating a 
critical extra layer of vigilance that is already in place in 
airports and absent with the TWIC approach.
    Additionally, pursuing the highly Federalized TWIC approach 
in aviation would eliminate local operational control, stymie 
significant efforts already under way at airports across the 
country to upgrade and biometrically enable existing badging 
and access control systems and significantly increase costs to 
the aviation industry. Again AAAE opposes a centralized 
approach and is pleased that the bill clearly delineates 
between Federal and local roles and responsibilities.
    Mr. Chairman, by keeping DHS focused on improving its own 
vetting functions and limiting the expansion of Federal 
Government's responsibilities in the aviation environment, the 
MODERN Security Credentials Act would, in AAAE's view, 
accelerate efforts to harmonize security processes with the 
Federal Government, limit unnecessary Federal and industry 
expenditures and protect the system that has served airports, 
the aviation industry, and the Nation well for decades.
    Before concluding, I want to highlight the proactive 
efforts of the basic initiatives. Airports are committed to 
moving forward to bring biometrics into the airport environment 
as soon as possible in a manner that builds upon existing 
capabilities and limits operational difficulties. The basic 
initiative, which is being driven by airports in cooperation 
with TSA, offers the best opportunity for making the promise of 
biometrics a reality in a timely manner.
    Thank you, I look forward to your questions.
    [The statement of Ms. Olivier follows:]
                Prepared Statement of Jeanne M. Olivier
                              May 4, 2011
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee, thank you for the opportunity to discuss the MODERN 
Security Credentials Act, legislation aimed at consolidating and 
harmonizing the Federal security threat assessment (STA) process for 
transportation workers. We appreciate your recognition of the critical 
role that airports play--and must continue to play--working with the 
Federal Government to protect vital and security sensitive airport 
facilities.
    I am appearing today on behalf of the American Association of 
Airport Executives, which represents thousands of men and women across 
the country who operate and manage the Nation's airports. I am actively 
involved with AAAE as Vice Chair of the association's Transportation 
Security Services Committee and as Chair of the Biometric Airport 
Security Identification Consortium or BASIC initiative, an airport-led 
effort to create a biometric-based solution for airport badging and 
access control. I currently serve as Assistant Director, Aviation 
Security & Technology for the Aviation Department of the Port Authority 
of New York and New Jersey. In this capacity, I oversee security 
operations for New York's Kennedy and La Guardia airports and for 
Newark Liberty International Airport and Stewart International Airport.
    As you know, airports play a unique and critical role in aviation 
security, serving as an important partner to the Transportation 
Security Administration in helping the agency meet its core mission of 
passenger and baggage screening. The significant changes that have 
taken place in airports over the past decade with the creation of the 
TSA and its assumption of all screening duties have been aided 
dramatically by the work of the airport community, and we will continue 
to serve as a critical local partner to the agency as it continually 
modifies its operations.
    In addition to partnering with TSA to meet its core mission, 
airports as public entities also perform a number of inherently local 
security-related functions at their facilities, including incident 
response and management, perimeter security, employee badging and 
credentialing, access control, infrastructure and operations planning, 
and a myriad of local law enforcement functions. These important duties 
have long been local responsibilities that have been performed by local 
authorities in accordance with Federal standards under Federal 
oversight.
    Airport operators meet their security-related obligations with a 
sharp focus on the need to protect public safety, which remains one of 
their fundamental missions. The professionals who perform these duties 
at airports are highly trained and have the first responder duties that 
I know each and every Member of this subcommittee, the Congress, and 
the country value immensely. From a security and resource perspective, 
it is critical that these inherently local functions remain local with 
Federal oversight and backed by Federal resources when appropriate.
 preserving the local role of airports with badging and access control 
                              is critical
    As this subcommittee and Congress contemplate changes aimed at 
enhancing the efficiency of the Federal STA process for the various 
transportation worker populations who are required to have these 
checks, it is important to understand and protect the unique role that 
airports play with regard to the overall background screening process 
for aviation workers and with badging and access control at their 
facilities.
    In the aviation environment, the background check process for 
workers operates successfully as a Federal/local partnership with the 
Federal Government holding sole responsibility for STAs and other 
necessary Government checks for prospective workers and with local 
airport authorities operating and managing enrollment, credentialing, 
badging, criminal history background check adjudication and access 
control systems in accordance with strict Federal standards.
    The current system for aviation ensures the highest level of 
security by combining the unique local experience, expertise, and 
knowledge that exists at individual airports regarding facilities and 
personnel with Federal standardization, Federal oversight, and Federal 
vetting assets. Local involvement provides a critical layer of security 
and gives airports the operational control they require to ensure that 
qualified employees receive the credentials they need to work in the 
airport environment.
    In contrast to the long-standing locally controlled credentialing 
and access control apparatus that exists in the aviation environment, 
the credentialing/access control system in place in the maritime 
environment with the Transportation Worker Identification Credential 
(TWIC) program is relatively new. Under the TWIC model, the Federal 
Government or its contractors are responsible for all aspects of the 
process, including worker enrollment, applicant vetting, credential 
issuance, and associated functions of access control. In our view, the 
early results of TWIC have been uneven at best despite hundreds of 
millions of dollars in Federal investments. The existing system in 
aviation operates at no cost to the Federal Government.
    increased federal role in local airport security functions will 
                           diminish security
    Some have suggested abandoning the successful local systems and 
processes already in place at airports with badging and access control 
to give TSA and the Federal Government full control over the entire 
process as is the case with TWIC in the maritime environment. Airport 
executives oppose any move to shift critical local functions in 
aviation to the Federal Government and believe that such a move would 
diminish security by eliminating a critical, extra layer of security 
that is already in place in airports and absent with the TWIC approach.
    Pursuing such an approach would scuttle a successful local/Federal 
model that has worked well for decades, eliminate local operational 
control, stymie significant efforts already under way at airports 
across the country to upgrade and biometrically enable existing airport 
badging and access control systems, and significantly increase costs to 
the aviation industry with no demonstrable security benefit.
    With that in mind, AAAE is gratified that the MODERN Security 
Credentials Act introduced earlier this week by subcommittee leaders 
seeks to protect the existing, successful, locally controlled 
credentialing and access control apparatus while encouraging the 
Department of Homeland Security to consolidate, harmonize, and reduce 
redundancies within the vetting processes directly under Federal 
control. This approach stands in marked contrast to efforts underway 
within DHS as part of the TSA Transportation Threat Assessment and 
Credentialing (TTAC) Infrastructure Modernization (TIM) program to 
harmonize aviation vetting programs with other, less mature 
transportation worker vetting programs that the Department manages, 
namely TWIC and the hazmat endorsement for trucking.
    One of the stated goals of TTAC's on-going effort is to ``harmonize 
and standardize its enrollment process across its security threat 
assessment programs, envisioning a centrally managed enrollment 
service, phasing in applicant populations over time.'' TTAC budget 
documents note different enrollment, vetting, and adjudication and 
redress processes between various transportation programs and state 
that TIM will ``combine functions and processes into a single, uniform 
approach with common security requirements, methods, and information.''
    While the desire to centralize and Federalize the process for all 
transportation worker vetting programs may be understandable from the 
Department's perspective, airport executives are concerned about 
Federal intrusion into existing processes that have worked well for 
decades. Airports are also very concerned about having to help foot the 
bill for the costly TIM effort--estimated at $571 million through 
2018--for changes that provide them with no demonstrable security or 
operational benefit. The current system in aviation operates 
efficiently and effectively at a fraction of the cost of other 
transportation vetting programs and at no cost to the Federal 
Government. We want to ensure that remains the case.
    With the Federal Government and State and local governments 
operating under historic budget constraints, it makes little sense to 
devote hundreds of millions of dollars in scarce resources to 
Federalize functions that airports have performed successfully for 
nearly a decade. The TIM effort fails to take into account the long-
proven approach that exists in the aviation industry.
    Again, AAAE opposes such a centralized approach and is pleased that 
the MODERN Security Credentials Act seeks to clearly delineate between 
Federal and local roles and responsibilities. By keeping DHS focused on 
improving its own vetting functions and limiting the expansion of the 
Federal Government's responsibilities in the aviation environment, we 
believe the legislation will help accelerate efforts to harmonize 
security processes within the Federal Government, limit unnecessary 
Federal and industry expenditures, and protect a system that has served 
airports, the aviation industry, and the Nation well for decades.
    Mr. Chairman, AAAE sincerely appreciates the opportunity that you 
and your staff have afforded for input on this important legislation. 
We are particularly grateful for provisions that have been added prior 
to introduction to clarify that airport operators should maintain all 
roles and responsibilities they currently hold, including final 
decisions on badge issuance and access rights throughout their 
facilities. We look forward to continuing our work with you and with 
other Members of the subcommittee as this measure moves through the 
legislative process.
      biometric airport security identification consortium (basic)
    Before concluding, I want to take this opportunity to bring the 
subcommittee up to date on a related topic and the efforts of the 
Biometric Airport Security Identification Consortium or BASIC 
initiative, which I chair. In simple terms, the objective of BASIC is 
to define a comprehensive, airport-driven Concept of Operations that 
will enable voluntary migration to biometric-based badging and access 
control systems at airports--a goal that I know subcommittee Members 
share. More than 40 airports of all sizes actively participate in 
BASIC. I would note that BASIC airport participants are working 
cooperatively with TSA on this initiative as well as with other groups, 
including the Airports Consultants Council.
    Many airport operators--including the Port Authority of New York 
and New Jersey--are eager to move forward with biometrics, but concerns 
remain about the prospect of overly prescriptive and costly solutions. 
Airports are also eager to avoid repeating mistakes made in the past 
where the Federal Government required costly and often proprietary 
access control systems to be deployed in airports in a short period of 
time. That approach proved both expensive and ineffective.
    In an effort to avoid unnecessary regulations and a one-size-fits 
all mandate regarding biometric-based systems, airports participating 
in BASIC have identified several key principles that must be part of 
any future biometric-based badging and access control systems, 
including:
  <bullet> Safeguards on local control and issuance of credentials,
  <bullet> Leveraging of existing capital investments and resources,
  <bullet> Standards-based open architecture and local determination of 
        qualified vendors, and
  <bullet> Phased implementation that migrates over time.
    In addition to building on the processes and regulations already in 
place at airports today, BASIC is also working to adapt important 
Federal standards regarding secure biometric credentials into the 
airport's operational environment. For example, Federal Information 
Processing Standard (FIPS) 201 and the more recent Personal Identity 
Verification Interoperability (PIV-I) for Non-Federal Issuers are 
reflected throughout the BASIC Concept of Operations and greatly inform 
the recommended phased implementation for airports.
    The BASIC working group, which meets on a regular basis, is moving 
forward aggressively to develop a detailed Concept of Operations that 
will define the biometric components and common business processes that 
need to be added to airports' existing procedures to enable biometric-
based badge and access control systems in a reasonable and cost-
effective time frame. In fact, several airports have already begun to 
implement the early phases of the BASIC Concept of Operations. Newark 
Liberty International Airport, San Francisco International Airport, 
Aspen Pitkin County International Airport, Los Angeles International 
and Salt Lake City International Airport--to name just a few--have 
implemented a secure messaging structure for the submission of 
biographic security threat assessments and biometric criminal history 
record checks that will ultimately enable the return of trusted 
biometrics back to the airport for use on credentials or in access 
control systems.
    Airports are committed to moving forward to bring biometrics into 
the airport environment as soon as possible in a manner that builds 
upon existing capabilities and limits operational difficulties. The 
BASIC initiative, which is being driven by airports in cooperation with 
the Federal Government, offers the best opportunity for making the 
promises of biometrics a reality in a timely manner.
    Mr. Chairman, thank you for the opportunity to testify today and 
for your recognition of the important role that airports play 
partnering with the Federal Government to enhance aviation security. 
Your efforts to preserve and protect the important role that airport 
operators play with regard to badging, credentialing, and access 
control at their facilities will help ensure that important efforts 
within the Federal Government to harmonize its own internal processes 
are not distracted by a costly and unnecessary attempt to Federalize 
important local airport-controlled security functions, which provide 
countless benefits, including a vitally important additional layer of 
security.
    I look forward to answering any questions you might have.

    Mr. Rogers. Thank you.
    The Chairman now recognizes Mr. Martin Rojas, of the 
American Trucking Association and we look forward to hearing 
your testimony.

     STATEMENT OF MARTIN ROJAS, VICE PRESIDENT, SECURITY & 
           OPERATIONS, AMERICAN TRUCKING ASSOCIATION

    Mr. Rojas. Good afternoon, Chairman Rogers and Members of 
the subcommittee. Thank you for opportunity to testify today on 
the MODERN Security Credentials Act.
    My name is Martin Rojas, and I am vice president for 
security and operations at the American Trucking Association.
    The trucking industry is an essential component of our 
economy, transporting more than 80 percent of our Nation's 
freight bill and employing nearly 7 million workers, including 
over 3 million commercial drivers.
    It is these hard-working men and women who will gain the 
most from this committee's efforts to implement The MODERN 
Security Credentials Act.
    First, I want to take a moment to recognize and thank the 
Homeland Security Committee for its bipartisan efforts and 
leadership in passing the SAFE Truckers Act of 2009.
    Although the bill did not pass the full Congress, it 
highlighted the importance for implementing a risk-based 
approach in transportation security. ATA believes that the the 
MODERN Security Credentials Act, if signed into law, will have 
a positive impact by reducing burdensome background checks and 
excessive fees and costs.
    Presently the hazardous material endorsement screening 
program and the Transportation Worker Identification Credential 
impact large portions of the commercial driver population.
    According to TSA, about 1.7 million screenings have taken 
place under the hazmat endorsement program. Roughly 340,000 
drivers have undergone the TWIC screening, making these drivers 
the single-largest population of TWIC holders by job 
description.
    Today, drivers who pay $132.50 for a TWIC must also undergo 
a separate yet identical screening to get a hazmat endorsement 
on their commercial driver's license. That screening cost is 
$89.
    ATA calculates that commercial drivers have paid almost 
$200 million in TWIC and hazmat endorsement fees. In 2004, TSA 
stated that there were 2.7 commercial drivers with hazmat 
endorsements. Today, after completing a full 5-year cycle of 
endorsement and renewals, there are about 1.5 million truck 
drivers with such endorsements.
    This 40 percent drop in drivers with hazardous material 
endorsements is not due to the applicants being disqualified. 
Less than 1 percent of applicants have been disqualified and 
mostly because drivers don't understand the program's appeal 
and waiver process. ATA believes that drivers are simply 
choosing not to renew or seek a new hazardous material 
endorsement due to the cost and the complexity associated with 
undergoing this screening process.
    At a time when our economy is slowly recovering, trucking 
faces a returning driver shortage. Unfortunately multiple 
screening programs compound the challenge for trucking 
companies to attract, hire, and add new drivers to their 
payrolls. Potential drivers are likely to go find employment 
elsewhere rather than be subjected to multiple fingerprint 
applications to become a driver.
    ATA supports a background check for drivers, but we oppose 
multiple costly screening programs. This is why ATA has 
supported the TWIC as a single application and enrollment 
process for compliance with multiple screening and access 
control requirements.
    ATA supports the MODERN Security Credentials Act because it 
establishes a risk-based approach for screening drivers who 
will transport security sensitive materials. We also support 
the bill because it defines the TWIC as the process for 
compliance with the background check. However, ATA believes 
that section 2104 needs to be amended to include all hazardous 
materials to ensure a uniform background check screening 
program. If section 2104 is left unchanged, non-Federal 
political entities could continue to require background checks 
on drivers transporting any type of hazmat, including paint, 
hairspray, and soft drink syrup.
    Again, on behalf of ATA and its members, I thank the 
committee for its leadership on this critical issue and for the 
opportunity to testify. I look forward to answering any 
questions you may have.
    Thank you, Mr. Chairman.
    [The statement of Mr. Rojas follows:]
                   Prepared Statement of Martin Rojas
                              May 4, 2011
                              introduction
    Chairman Rogers and Members of the Subcommittee on Transportation 
Security, thank you for the opportunity to testify today on the MODERN 
Security Credentials Act. My name is Martin Rojas and I am vice 
president for Security and Operations at the American Trucking 
Associations (ATA). Founded in 1933, ATA is the Nation's preeminent 
organization representing the interest of the U.S. trucking industry. 
Directly and through its affiliated organizations, ATA encompasses over 
37,000 companies and every type and class of motor carrier operation.
    The trucking industry is an integral component of our Nation's 
economy transporting more than 80% of our Nation's freight bill and 
employing approximately 7 million workers in trucking-related jobs, 
including over 3 million commercial drivers. It is important to note 
that the trucking industry is comprised primarily of small businesses, 
with 97% of trucking companies operating 20 trucks or less, and 90% 
operating six trucks or less.\1\
---------------------------------------------------------------------------
    \1\ American Trucking Associations, American Trucking Trends 2011 
(March 2011).
---------------------------------------------------------------------------
    More importantly, about 80 percent of all U.S. communities depend 
solely on trucks to deliver and supply their essential commodities. 
Included in these deliveries are roughly 800,000 daily shipments of 
hazardous materials that provide chemicals for water treatment 
facilities, medical products and supplies, vital manufacturing inputs, 
and a number of other products that are important components of our 
daily lives. In terms of product value, tonnage, and number of 
shipments, trucks move more hazardous materials than all other 
transportation modes combined.\2\
---------------------------------------------------------------------------
    \2\ See Bureau of Transportation Statistics, 2007 Commodity Flow 
Survey (January 2011).
---------------------------------------------------------------------------
                               background
    ATA and its members are grateful for the hard work and bipartisan 
leadership demonstrated by the Homeland Security Committee and the U.S. 
House of Representatives in passing the SAFE Truckers Act of 2009 (H.R. 
2200) in the 111th session of Congress. By passing the bill, the House 
underscored the importance of establishing a risk-based approach for 
the transportation of hazardous materials and the need to consolidate 
the multiple background checks required of commercial drivers. 
Unfortunately, the SAFE Truckers Act was not passed by the full 
Congress and did not become law.
    ATA believes that the MODERN Security Credentials Act, if signed 
into law, will have the same positive impact of reducing the burdensome 
requirements of multiple background checks and of excessive fees and 
costs faced by commercial drivers and trucking companies.
    Both the Hazardous Materials Endorsement (HME) screening program 
and the Transportation Worker Identification Credential (TWIC) impact 
large portions of the commercial driver population. About 1.5 million 
drivers have undergone the HME screening since the program was 
initiated in May, 2005, and roughly 340,000 ``known'' commercial 
drivers have undergone a TWIC screening,\3\ by far the largest single 
population of TWIC holders by job description operating at maritime 
facilities.
---------------------------------------------------------------------------
    \3\ TSA compiled statistics show about 340,000 applicants who list 
their job description as drayage drivers or truck drivers. However, 
about half of all TWIC applicants have not specified their job 
description, which could include commercial drivers.
---------------------------------------------------------------------------
             ata concerns with current screening processes
    To illustrate ATA's concerns with the present screening processes, 
consider the following scenario: If a driver who possesses a TWIC, 
after paying $132.50 for the credential, is required to also transport 
hazardous materials, the driver must obtain an HME on his or her 
Commercial Drivers License (CDL). Even though the driver has already 
undergone a TWIC screening, an additional and identical screening under 
the HME program must be done before a State can issue an HME on the 
driver's CDL. The HME screening costs $89 if the driver resides in one 
of the 38 States, plus the District of Columbia, that use TSA's 
contractor to gather a driver's biometric and biographical information. 
There are 12 States that collect driver information and fingerprints 
using their own processes before sending it to TSA for adjudication. 
Some of these 12 States charge less than the TSA contractor while 
others charge more, some as high as $150.
    By ATA's estimate, the TWIC and HME screenings have so far cost 
commercial drivers nearly $180 million in fees alone,\4\ not including 
lost wages for time off work to undergo the application and 
fingerprinting processes. More time, and the related costs, is required 
for a driver to pick up the credential and activate it at a TWIC 
facility.
---------------------------------------------------------------------------
    \4\ ATA arrives at this figure as follows: 1.5 million commercial 
drivers with HMEs  $89 = $133.5 million, plus 340,000 drivers  
$132.50 = $45 million, for a total of $178.5 million.
---------------------------------------------------------------------------
    Using TSA's own numbers there were approximately 2.7 million 
commercial drivers with HMEs in 2004.\5\ Today, after having already 
completed a full cycle of HME renewals on the truck driver population, 
there are approximately 1.5 million commercial drivers with HMEs.\6\ 
The drop in the population of drivers with HMEs is not a result of 
applicants being disqualified during the screening process--less than 1 
percent of applicants have received final disqualification letters and 
those have mostly been issued because the drivers did not understand 
and avail themselves of the screening program's appeal and waiver 
process.\7\
---------------------------------------------------------------------------
    \5\ 69 Federal Register at 68739 (November 24, 2004)
    \6\ This number has been provided by TSA personnel during meetings 
of the Highway Motor Carrier Government-Sector Coordinating Council. 
TSA has stated that an average of 25,000 commercial drivers underwent 
the HME Screening in the first full 5 years of the program: 60 months  
25,000 = 1.5 million.
    \7\ TSA has shared with ATA staff that applicants that have 
received final disqualifications letters, for both the TWIC and HME 
programs, represent less 1 percent.
---------------------------------------------------------------------------
    ATA believes that the reduced number of HME holders is due 
primarily to the costs and the burden on commercial drivers of the 
fingerprinting and application process for getting an HME. Some 
trucking companies with a small percentage of hazardous materials loads 
have even stopped transporting such cargo to avoid burdening their 
drivers with the HME screening. Keep in mind that the trucking industry 
faces a continuing driver shortage of qualified commercial drivers. Any 
requirements that increase the burden of entry for drivers, such as 
multiple background checks, only compounds the challenge for trucking 
companies to attract, hire, and add new drivers to their payrolls.
    ATA and its members support a comprehensive security-related 
background screening for commercial drivers. However, the trucking 
industry opposes Government programs that require drivers to undergo 
multiple background checks to perform the very same security threat 
assessment. Because of the multiple screening programs in place today, 
ATA has long supported the original concept of the TWIC: One 
application and enrollment process, one fee, one security threat 
assessment, and a single credential that transportation workers may 
carry to demonstrate compliance with multiple access control security 
requirements.
    If the MODERN Security Credentialing Act becomes law, it will 
establish an important precedent for consolidating multiple, costly 
screening programs into a single security threat assessment and 
credential with multiple applications for transportation workers. ATA 
believes this is a very important and achievable goal.
            key issues in modern security credentialing act
    I would like to briefly highlight specific areas that have been 
included in the proposed bill under Title XXI that the trucking 
industry views as vital to ensure it meets its intended goals.
Sec. 2101    Transportation of Security Sensitive Materials
    ATA strongly supports establishing a risk-based approach to the 
transportation of security sensitive hazardous materials (SSM). The 
bill recognizes that not all hazardous materials represent the same 
security risk--paint, food coloring, and soft drink syrup are not 
materials that can be utilized as weapons by terrorists.
    This section also establishes the TWIC as the background check and 
credential required to transport SSM. ATA also supports this provision. 
Establishing the TWIC as the background check process and credential 
not only mandates the consolidation of screening programs for drivers, 
but it also returns the HME to its original purpose of establishing an 
individual's fitness to safely operate a commercial vehicle 
transporting placarded loads of hazardous materials. It is important to 
remember that the HME was established as an additional ``safety'' 
component of a driver's CDL to ensure that a driver has the necessary 
knowledge and understanding for the safe and compliant transportation 
of hazardous materials.
Sec. 2102    Enrollment Locations
    ATA supports this language to ensure that commercial drivers have 
the greatest level of flexibility regarding the locations and hours of 
operations for undergoing the application process and for receiving and 
activating the TWIC.
Sec. 2103    Commercial Drivers from Mexico or Canada
    ATA supports this section requiring commercial drivers from Canada 
or Mexico to undergo a background check that is equivalent to what U.S. 
commercial drivers are required to undergo. It should be noted that TSA 
presently allows Canadian or Mexican drivers to satisfy the 
requirements under 5103a of title 49 by successfully undergoing a 
background check and obtain either a TWIC or Free and Secure Trade 
(FAST) card.
Sec. 2104    Redundant Background Checks
    ATA supports the proposed bill's mandate that the TWIC serve as a 
uniform Nationally accepted background check screening program for the 
transportation of SSM. This means that States and thousands of local 
jurisdictions should not be allowed, without demonstrating some 
compelling need, to require additional security background checks and/
or credentials for individuals that have a Federally-issued TWIC.
    However, ATA believes the language Sec. 2104(a) should be amended 
to read as follows:

``(a) IN GENERAL.--The Secretary shall prohibit a State or political 
subdivision thereof from requiring a separate security background check 
of an individual seeking to transport [security-sensitive] hazardous 
materials.''

    The change to ``hazardous materials'' is essential to ensure this 
section achieves the goal of establishing a risk-based approach for the 
transportation of hazardous materials. Otherwise, if this language is 
not changed as suggested above, it could result in non-Federal 
political entities continuing to require background checks on drivers 
transporting any type of hazardous material. Furthermore, this very 
same language was included by the Homeland Security Committee and 
passed by the House of Representatives in the SAFE Truckers Act under 
Section 2107.
Sec. 2105    Transition
    ATA supports allowing commercial drivers that have already 
undergone an HME screening to transport SSM until the expiration of 
their present HME. ATA also supports the need for reducing the fees 
associated with the TWIC.
                               conclusion
    ATA supports the MODERN Security Credentialing Act. The screening 
of individuals involved in the transportation of goods is important to 
the trucking industry. Our industry has long supported a National, 
uniform process to check a commercial driver's criminal history. 
However, the present multiplicity of background checks for commercial 
drivers, and their associated costs, creates a significant challenge 
for the recruitment and retention of qualified drivers. Simply stated, 
if there are comparable jobs in other sectors with less stringent 
barriers to entry, potential drivers will likely seek those jobs first.
    Again, on behalf of ATA and its members, I thank you for the 
opportunity to share some comments and our suggestions regarding the 
MODERN Security Credentials Act. I look forward to answering any 
questions by the Members of this committee.

    Mr. Rogers. Thank you.
    The Chairman now recognizes Mr. Randall Walker, director of 
Aviation at Las Vegas McCarran International Airport for your 
statement.
    Welcome.

STATEMENT OF RANDALL H. WALKER, DIRECTOR OF AVIATION, LAS VEGAS 
  MCCARRAN INTERNATIONAL AIRPORT, CLARK COUNTY DEPARTMENT OF 
                           AVIATION.

    Mr. Walker. Thank you, Mr. Chairman, Ranking Member Jackson 
Lee, and Members of the subcommittee, on behalf of members of 
the Airport Council International, North America, thank you for 
this opportunity to discuss and give comments on the MODERN 
Security Credentials Act.
    Before I give more detailed comments on the legislation, I 
want to thank the committee for the provisions that reinforce 
the airport operator's right to restrict an individual's access 
to the secure areas and preserve the right to disqualify 
individuals from employment based on a review of the criminal 
history records check.
    However, while the legislation does contain these 
provisions, ACI has identified some concerns with the bill.
    First, the legislation contains language requiring a TWIC-
like process, whereby the Secretary determines whether an 
individual is qualified to receive unescorted access to secure 
areas based on the review of the results of the criminal 
records history check. This language appears to shift the 
responsibility of adjudicating the results of a criminal 
history records check from local airports to the DHS.
    Such a change would most certainly lengthen the time to 
complete the badging process and increase the costs for 
airports. It could also prevent airports from imposing a more 
stringent security requirement, which may be necessary to 
address unique security challenges at individual airports.
    Airports are concerned with the language of this bill, as 
written, and believe that the results of the criminal history 
record check must be adjudicated at a local level. 
Additionally, ACI believes that there is no need for 
individuals who have been denied unescorted access to secure 
areas to participate in a formal waiver process through TSA.
    There is an existing effective process which allows 
individuals to seek redress if they have been denied a SIDA 
badge due to the information received from a criminal history 
records check or a security threat assessment. With language in 
the bill that allows the cost of the TWIC waiver process to be 
incorporated into if this security threat assessment fee, ACI 
believes airports will be faced with increasing costs for 
background checks. It makes no sense to force airport operators 
to pay the costs of an unnecessary and duplicative waiver 
process.
    Airports believe that DHS should harmonize the system for 
background check data submission for aviation workers. However, 
the rulemaking language in the legislation is overly broad and 
unnecessary for DHS and TSA to move forward with its rulemaking 
to align the background check requirements and associated fees, 
something that is already under way.
    The rulemaking language, along with the proposal for the 
Secretary, not the airport, to determine whether individuals 
are qualified to be granted unescorted access to secure areas 
could allow TSA to merge the process for security threat 
assessments and criminal history record checks. If these two 
processes are merged, it would be problematic for airports, as 
not all airport credentials grant unescorted access to the 
secure area.
    Airports believe this bill includes conflicting 
requirements that would cause unintended and unnecessary 
operational challenges and impose additional costs for airports 
without improving security.
    Because of this, airports encourage the committee to direct 
TSA to constitute a Government and industry working group with 
the task of making recommendations for streamlining the current 
process, which could be incorporated into a future rulemaking 
process.
    Finally, limitation language in the bill seems to protect 
the current monopoly process with regard to the channeling 
service provider airports must use for background checks. If 
this legislation is enacted before TSA has changed its security 
directive and regulatory guidance, which requires airports to 
only use the transportation security clearinghouse, this could 
be interpreted by TSA as a ban on competition for channeling 
service providers, thus protecting TSA's sole source contract 
with transportation security clearinghouse and preventing 
airports from taking advantage of a competitive marketplace.
    Mr. Chairman, when I first read this bill--and I was 
comforted by your remarks--but when I first read this bill, I 
actually found it ironic this Republican-controlled committee 
would advance a bill that seemed to increase the Federal 
control of this process at the expense of the local control.
    In our opinion, such a Federalization of the process will 
increase processing time, which, of course, to our tenants, 
equates to money, and compliance costs without any improvement 
in security.
    Additionally, I would also find it ironic if this 
legislation, which appears to perpetuate a monopoly on 
channeling services, was enacted by this committee. Three years 
ago, as chairman of ACI, on behalf of our members, I sent a 
letter to the TSA administrator requesting that competition be 
provided to our members. Currently the TSA is working on that 
process, and I think they might be done sometime later this 
year.
    We look forward to working with the committee, DHS, and TSA 
to identify procedures to increase the effectiveness and 
efficiency of background check data submission process for 
airport workers and preserving the ability for airports to 
adjudicate the criminal records history process and make 
decisions at the local level whether to grant access to our 
airports.
    Mr. Chairman, I would be happy to answer any questions.
    [The statement of Mr. Walker follows:]
                Prepared Statement of Randall H. Walker
                              May 4, 2011
    Chairman Rogers, Ranking Member Jackson Lee, and Members of the 
subcommittee, thank you for the invitation to appear before you today 
to offer the views of airport operators on the Modernizing of 
Documentation and Elimination of Redundant Identification and Security 
Credentials Act (MODERN Security Credentials Act). My name is Randall 
Walker and I am the director of Aviation for the Clark County 
Department of Aviation which operates McCarran International Airport in 
Las Vegas, Nevada and four general aviation airports. I am testifying 
on behalf of the 344 member airports of Airports Council 
International--North America (ACI-NA) which enplane more than 95 
percent of the domestic and virtually all the international airline 
passenger and cargo traffic in North America. More than 350 aviation-
related businesses are also members of ACI-NA.
    Before offering comments on the specific legislation, it is 
important to first understand the processes and procedures in place at 
airports to ensure applicants have been subjected to a background check 
prior to the airport issuing a Security Identification Display Area 
(SIDA) badge, which allows individuals to have unescorted access to 
secure areas of the airport.
                           sida badge process
    Currently, applicants wishing to receive a SIDA badge must undergo 
a Security Threat Assessment (STA) to verify the individual's identity 
and allow the Transportation Security Administration (TSA) to utilize 
the Terrorist Screening Database and other Government systems to ensure 
that the individual is a lawful resident of the United States and does 
not pose a security threat. TSA uses a variety of classified databases 
in order to perform the STA. Because of the sensitive nature of the 
results, TSA only provides airports with an approved status, indicating 
that the airport may grant the individual unescorted access to secured 
areas through the issuance of a SIDA badge, or a disapproved status, 
indicating that the airport must not issue the individual a SIDA badge 
or other form of identification. In addition, airports are required to 
submit an applicant's fingerprints to the FBI which conducts a Criminal 
History Record Check (CHRC). The results of the applicant's CHRC is 
sent to the airport so they can determine whether the individual has 
been found guilty (or not guilty by reason of insanity) of any of the 
28 disqualifying crimes during the 10 years prior to the application 
for the SIDA badge. Some airports, through their TSA-approved airport 
security programs (ASPs), actually have a longer ``look back'' period 
or include additional disqualifying crimes; a process they believe 
enhances security at their airport and/or is required by State or local 
laws.
    There is a process in place which allows individuals to seek 
redress if they have been denied a SIDA badge due to information 
received from a CHRC or STA. If the individual has been denied airport 
credentials based on the results of a CHRC, TSA regulations require 
that the airport operator advise the individual that the CHRC discloses 
information that would disqualify him or her from receiving or 
retaining a SIDA badge and provide the individual with a copy of the 
FBI record if the individual requests it. TSA regulations also allow 
corrective action by an individual if he or she believes the FBI 
records are inaccurate. Regulations state that the individual may 
contact the local jurisdiction responsible for the information and the 
FBI to complete or correct the information contained in his or her 
record within 30 days after being advised that the CHRC discloses a 
criminal offense. The individual must also notify the airport in 
writing of his or her intent to correct any information they believe to 
be inaccurate. The airport operator must obtain a copy, or accept a 
copy from the individual of the revised FBI record or a certified true 
copy of the information from the appropriate court, prior to issuing 
the individual a SIDA badge granting unescorted access.
    If through an STA, the TSA determines that an applicant does not 
meet the requirements and is denied an airport-issued badge, TSA will 
provide the individual:
    (i) A statement that TSA has determined that the applicant does not 
        meet the eligibility requirements to hold an airport-approved 
        and/or airport-issued personnel identification media;
    (ii) The basis for the determination;
    (iii) Information about how the applicant may appeal the 
        determination; and
    (iv) A statement that if the applicant chooses not to appeal TSA's 
        determination within 60 days of receipt of the Initial 
        Determination, or does not request an extension of time within 
        60 days of the date of service of the Initial Determination of 
        Threat Assessment in order to file an appeal, the Initial 
        Determination will automatically become a Final Determination 
        of Threat Assessment (FDTA) without further notification from 
        TSA.
    TSA, not the airport authority, makes a determination as to whether 
an applicant's STA reveals information that the individual does or does 
not pose a security threat. Redress based on the STA will be handled on 
a case-by-case basis due to the classified and/or security sensitive 
information that may be involved. TSA is the final adjudicator of STA 
results.
    In addition to the STA and CHRC, TSA regulations require 
individuals seeking a SIDA badge to complete training provided by the 
airport.
    Pursuant to regulatory guidance issued in 2002 and subsequent 
Security Directives, TSA requires all airports and airlines to use and 
pay the Transportation Security Clearinghouse (TSC) for its email 
messaging services to consolidate and transmit the biographic and 
biometric data necessary for TSA to conduct Security Threat Assessments 
(STAs) and the FBI to conduct fingerprint-based criminal history record 
checks (CHRCs). In accordance with the requirements, airports collect 
the required biographic information of applicants for airport-issued 
identification badges, input the data in a spreadsheet and transmit it 
to the TSC. Similarly, airports collect the fingerprints of SIDA badge 
applicants and transmit them electronically to the TSC. The TSC simply 
consolidates the information and transmits it to the TSA.
    The TSC is not uniquely qualified to perform this function. Indeed, 
at least 18 companies, in addition to the TSC, have been certified by 
the FBI as being qualified to transmit data pursuant to Federal 
standards. With the expansion of background check requirements by State 
and local governments and the commercial sector, the FBI has developed 
a testing process for certifying companies that meet Federal standards 
to perform the function.
    Almost 3 years ago, as Chairman of ACI-NA, I sent a letter urging 
TSA to provide a fair, open, competitive process by allowing airports--
and other industry stakeholders--to utilize other channeling service 
providers. Around that time, several other airports sent letters with 
similar requests to TSA. To date, TSA has not allowed airports to 
choose between qualified vendors providing such services. My concern is 
not specifically with the TSC providing channeling services. Rather, it 
is that TSA has precluded fair and open competition in the marketplace 
in not allowing airport operators a choice between FBI-certified 
vendors that provide channeling services.
                             sida vs. twic
    The SIDA background check process and that for the Transportation 
Worker Identification Credential (TWIC) are distinctly different and 
affect very diverse workforces between the transportation modes, all of 
which may be faced with dissimilar threats. In the case of the SIDA 
badging process, the airport (the employer in most cases) grants 
unescorted access to certain areas of their individual facility. The 
ability for airport operators to monitor and limit individuals' access 
to certain areas at an airport is an essential layer of security that 
would be compromised under TWIC, which would allow a badge holder to 
access virtually any area of an airport. At a minimum, airports comply 
with strict regulations for STAs and CHRCs but again, some airports, 
because of State and local laws, go above and beyond the Federal 
minimums with regard to disqualifying offenses. Airports must follow 
TSA regulations, but unlike TWIC, identification badges are issued by 
the airport, not the Federal Government. It is also important to note 
that just because an individual has held or currently holds a SIDA 
badge from one airport it does NOT grant them unescorted access to 
secure areas of another airport. Due to the need for airports to limit 
individuals' unescorted access to certain locations within the secured 
area and given the vast differences between commercial aviation and 
port facilities, airports do not believe it makes sense to align the 
SIDA and TWIC processes.
                    modern security credentials act
    Although they are both agencies under the Department of Homeland 
Security (DHS), current TSA and Customs and Border Protection (CBP) 
regulations require separate and duplicative biometric and biographic 
data submissions to support background checks for aviation employees 
that are subject to the requirements of each agency. Rather than 
requiring separate data submissions to satisfy various agencies such as 
TSA and CBP, airports believe DHS should develop a consolidated system 
for background check data submissions for aviation workers. Airports 
support Congress helping to move TSA and DHS toward that goal.
    With regard to the MODERN Security Credentials Act, airports 
appreciate and support the language that reiterates the airport 
operator's right to restrict an individual's access to secure areas. 
Additionally, airport operators support the language which preserves 
their right to disqualify an individual from employment based on their 
review or adjudication of a criminal history record check. Although the 
legislation does contain some protections, airports have identified 
some concerns with the bill.
    First, the rulemaking language is overly broad and unnecessary for 
TSA to move forward with its rulemaking to align the requirements and 
fees for background checks, something that is already underway. While 
this language appears to only affect the STA process, proposed changes 
to section in the U.S. code in the legislation actually affect the 
process for CHRCs. This could mean that the STA and CHRC processes 
would be merged under this rulemaking and that airports would no longer 
be able to review or adjudicate CHRC results. Merging these processes 
could be problematic, as not all airport credentials give unescorted 
access to the secure area. Current TSA background check requirements 
stipulate that certain individuals should only be subject to an STA. If 
these processes are merged, it could mean that additional individuals--
who have no need for unescorted access to secured airport areas--would 
be required to get a CHRC, simply because they operate near or in an 
unsecured area of an airport. This could impose significant operational 
issues and unnecessarily drain limited resources while significantly 
increasing costs. For example, construction personnel working on 
airport projects do not have unescorted access and therefore, are only 
required to have an STA. Airports have existing effective measures in 
place to ensure that these personnel do not go into the SIDA area. 
Expanding the current requirement to include this population is 
unnecessary and could cause significant delays in these projects while 
workers wait for the processing of their CHRCs.
    Airport operators agree that DHS should be required to consult with 
various stakeholders, including airports as they develop the rule. 
However, the consultation language provided in the bill does not 
require recommendations by stakeholders to be considered as part of or 
inform the rulemaking process, which allows the agency to disregard any 
comments made by stakeholders during the consultation process.
    Furthermore, the limitation language in the bill protects the 
current process at airports with regard to the background checks. But, 
if this legislation is enacted before TSA has changed the security 
directive and regulatory guidance which requires airports to use the 
TSC, this could be interpreted by TSA as a ban on competition for 
channeling service providers, thus protecting the TSC's sole-source 
contract and the requirement that airports use only TSC as their 
channeling service provider. ACI-NA has long advocated for TSA to allow 
airports a choice between qualified vendors, including the TSC, that 
consolidate and transmit the required biographic and biometric 
information for STAs and CHRCs. ACI-NA asks that the language be 
modified to protect competition among channeling service providers.
    Airports support the requirement in the bill that the agency 
provide an analysis of how the STA process will be consolidated; any 
reductions in fees or costs; and any other efficiencies that the rule 
may realize. However, the new process put forth by the rule could cause 
operational delays in getting responses back from TSA about whether 
individuals are cleared. ACI-NA believes TSA should also be required to 
conduct a thorough examination of the potential operational impacts 
resulting from the requirements prior to issuing a notice of proposed 
rulemaking.
    Although the bill contains specific language preserving the current 
process for airports to determine whether to issue individuals a SIDA 
badge granting unescorted access to secured areas, it also contains 
contradictory or conflicting language requiring the Secretary to 
determine whether an individuals qualified to receive a badge based on 
the results of the CHRC. This language would prevent airports from 
adjudicating results of a CHRC or imposing more stringent security 
requirements that are necessary for the unique security challenges at 
their airports. Airports strongly oppose this language and believe that 
the results of the CHRC should be adjudicated at a local level. Again, 
some airport operators, to enhance security in accordance with their 
TSA-approved airport security programs or because of State and local 
laws, choose to include additional disqualifying crimes or a longer 
``look back'' period than is required by Federal law. Airports 
reiterate that it should remain a local decision to implement more 
stringent security requirements.
    Because there is a process in place which allows individuals to 
seek redress if they have been denied a SIDA badge based on the results 
of the CHRC, airports believe there is no need for individuals denied 
unescorted access to secured areas to participate in the TWIC waiver 
process. While airports appreciate the language in the bill which 
protects the rights of airports to disqualify any individual from 
employment based on a review or adjudication of a CHRC even if the 
individual holds a waiver, there is concern about the potential for 
implied pressure some airports might receive from TSA over granting 
unescorted access to individuals that have received a waiver, 
particularly for TSA's own employees as has occurred previously. 
Airports also support the language which protects them from being sued 
for refusing to provide unescorted access to individuals that have been 
determined to have some derogatory information as part of their 
background check.
    As a result of the rulemaking required in the bill, airports will 
be faced with a significant increase in fees for STAs, a cost which TSA 
currently covers. Additionally, the legislation allows the costs of the 
waiver process to be incorporated into the fee. With a process already 
in place for individuals to correct inaccuracies identified in their 
CHRC and STA results, airports do not believe there is a need for a 
separate waiver process. ACI-NA is concerned that incorporating the 
costs of a waiver process and imposing a new fee for STAs will 
significantly increase costs. Again, while this may allow the fee for 
other populations within the transportation sector to be lowered, it 
will significantly increase fees in the aviation sector. Airport 
operators do not believe they should be forced to pay for the costs of 
a formal waiver process within TSA.
                               conclusion
    Although ACI-NA supports the goal of developing a consolidated 
system for the submission of data to support background checks for 
aviation workers, this bill includes conflicting requirements that 
would cause unintended and unnecessary operational challenges, and 
impose additional costs for airports. In order to ensure that the 
requirements are operationally feasible and commercially competitive, 
airports encourage the committee to direct TSA to constitute a 
Government and industry working group, tasked with making 
recommendations for streamlining the current process, which would be 
incorporated into a notice of proposed rulemaking.
    Airports believe very strongly in and are determined to retain 
their right to deny individual's unescorted access to secure areas at 
their airport. If an airport operator chooses (whether because of State 
and local laws or in order to enhance security) to include additional 
disqualifying crimes or a longer ``look back'' period than is required 
by TSA, it should be their prerogative to implement more stringent 
security requirements.
    While airports continue to urge DHS to develop a consolidated 
system for background check data submissions for aviation workers as a 
way to reduce costs and streamline the process, airports oppose the 
implementation of a credential which would provide universal access for 
aviation workers or for aviation workers to be absorbed into TWIC.
    ACI-NA looks forward to working with the committee, DHS, and TSA to 
identify procedures to increase the effectiveness and efficiency of the 
background check process for aviation workers while preserving the 
ability for airports to adjudicate results, make decisions about 
whether to grant unescorted access privileges to individuals and to 
determine the level of access based on job function.
    Thank you for the opportunity to appear before you today.

    Mr. Rogers. Great. Thank you.
    I would point out on the competition issue, there are two 
or three other entities that are supposed to be certified 
within the month.
    Mr. Walker. Correct.
    Mr. Rogers. So hopefully we will have that competition, 
because I agree. We want to see that come about.
    I am not going to take my full time because I want other 
Members to be able to ask questions before they call up the 
votes.
    However, I would ask, Mr. Walker, I am assuming that all 
your concerns are in your statement. I would like to see some 
suggested language changes that you would make, that you would 
feel make it more comfortable for you to address some of those 
concerns you just raised. You never know, I mean, we might be 
able to work something out to allay many of your concerns.
    Ms. Olivier, your colleague, Mr. Walker just now in his 
testimony, complains that the MODERN Security Credentials Act 
will somehow restrict competition for background check 
channeling services for airports to the benefit of AAAE's 
transportation security clearinghouse. Do you agree with that?
    Ms. Olivier. No, Chairman. Respectfully, as you pointed 
out, the TSA has already called for competition. They have 
already selected two additional channeling providers and are in 
the process of certifying them, so I think that we are well 
under the way for a competition which, in fact, I think myself 
and my colleagues have all supported, including members of 
AAAE.
    Just as an additional point on that, when I referred to the 
biometric airport security identity consortium that I work 
with, these members all in drafting a concept of operations 
working with the TSA-anticipated competition, and so as we try 
to anticipate the path to biometrics, we are anticipating the 
need for interoperability of credentials so that it will 
facilitate this competitive environment.
    Mr. Rogers. My last question for you, Ms. Olivier, you 
heard Mr. Walker's concern about Federalization of this 
process. Is that your organization's concern as well?
    Ms. Olivier. Yes, Mr. Chairman. We continue to feel 
strongly that airports need to have local control.
    Mr. Rogers. Then do you see anything in this legislation as 
a threat to that?
    Ms. Olivier. In fact, we were very pleased to see that the 
language culls out airports and respects the responsibilities 
and the authorities that airports currently have.
    Mr. Rogers. Okay.
    Last, Mr. Sadler, you have heard Mr. Walker's concerns. 
What would be your response to him?
    Mr. Sadler. I think the first thing I would say is that we 
feel that the airport is in the best position to control access 
at their facilities; that is No. 1.
    No. 2, I want to clarify that the security threat 
assessment is not the same as a credential.
    So everyone mentions the TWIC process as somehow being the 
security threat assessment process, and it isn't. The TWIC card 
is the result; it is of the security threat assessment process. 
What we are trying to do is we are trying to harmonize that 
background check and those disqualifiers so we can treat all of 
the transportation workers fairly and evenly across the board 
and we can satisfy our security objectives.
    So I just want to repeat, we don't intend and don't desire 
to issue a credential at an airport. The TWIC does not control 
access into a facility. What it does is it is another tool that 
allows a facility operator to control access.
    So if you get a TWIC card, which I have one, and I paid my 
$132.50 for it, I can't get into every port in the country. I 
can only get into a port if they want me to get in and if I 
have a business reason to get in.
    So I just want to be clear on that. Airports are in the 
best position to control access into their facilities, and we 
agree absolutely with that.
    Mr. Rogers. Great. I want to yield the balance of my time 
and go the Ranking Member, and I am very interested in hearing 
her questions being answered.
    With that, I recognize the Ranking Member, my friend from 
Texas, Ms. Jackson Lee.
    Ms. Jackson Lee. I thank the Chairman very much, and I am 
going to likewise try to be succinct and then make a brief 
comment, Mr. Chairman, and express my interest in reading this 
bill thoroughly and working with a lot of stakeholders, some of 
whom are in this room, on the final product.
    This question is for--and let me again thank all the 
witnesses for their presence here--this question is for Mr. 
Sadler and Mr. Walker. The bill, in essence, creates a two-
tiered system for waivers. Under the TWIC program, an applicant 
that secures a waiver from TSA is issued a TWIC card and can 
work in our Nation's ports.
    While under the airport credential program, an applicant 
that secures a waiver from TSA does not get a credential if the 
airport operator pulls its issuance, somewhat of what you just 
finished saying, Mr. Sadler. Does this two-tiered system 
trouble you, and how is this harmonization, Mr. Sadler?
    Mr. Sadler. Thank you, ma'am for that question.
    I want to make another clarification that currently under 
statute, an individual is allowed to appeal the criminal record 
information. So, basically, what they can do is they can 
correct the record, and we consider that to be an appeal.
    So the airport adjudicates to criminal history records. If 
there is some issue of misidentification or maybe the record 
itself is incomplete, there is an open disposition where the 
individual wasn't convicted or, excuse me, the disposition of 
that case wasn't added to the record, then that individual can 
correct that record.
    Ms. Jackson Lee. Right, I understand that. But you are not 
answering the question. The question is if you get a waiver 
from TSA, you don't get a credential from the airport; is that 
correct?
    Mr. Sadler. No, that is not correct.
    What I was trying to explain is it really isn't a two-tier 
waiver system because there isn't a waiver right now in effect 
under the current credentialing system. The applicant can 
appeal the decision of TSA. We do the National security checks 
and immigration check, and they can technically appeal the 
criminal history record information from the airport by 
correcting that record.
    What TSA will do is if they find a disqualifying 
conviction, a criminal conviction, they will allow the 
individual to show TSA that they have been rehabilitated in 
some way, whether they have paid restitution, they have cleared 
parole.
    Ms. Jackson Lee. Right, and that is when you give a waiver.
    Mr. Sadler. That is when you give the waiver.
    Ms. Jackson Lee. Right. I am now leaping to the airport. 
Please listen to my question.
    While under the airport credential program, an applicant 
that secures a waiver from TSA does not get a credential if the 
airport operator opposes issuance, is that correct?
    Mr. Sadler. Oh, that is correct. Yes, I am sorry, I 
misunderstood the question.
    Ms. Jackson Lee. That is the point I am making. So you have 
a two-tiered system basically. Do you have a comment on that?
    Mr. Sadler. I believe that it is necessary for TSA to be 
able to adjudicate the criminal history records, along with the 
rest of the information we get on the individual, so we can 
satisfy our transportation security objectives.
    But I also believe that the airport should have the right 
to determine who can go into that airport and conduct their own 
suitability check.
    Ms. Jackson Lee. Well, and there is a premise now that the 
individual now can get a TSA waiver and might be able to work, 
but, again, and I am not quarreling with you on this, the 
airport can decide whether they have access or not. In the 
modernization, I am confused and questioning whether or not 
that option is removed.
    Mr. Walker, do you have a comment on the point that I just 
made very quickly, please?
    Mr. Walker. No, I don't. I have listened to what Mr. Sadler 
said. I agree with him on his comments. I think there are 
reasons that airports need to look at the criminal history. 
Obviously, there is an opportunity for----
    Ms. Jackson Lee. But how does the modernization bill, as it 
is now written, impact that ability?
    Mr. Walker. Well, the way the bill is written today, we 
think is very open-ended and would allow--and we have provided 
some comments to the staff to make those changes, as you 
suggested, Mr. Chairman--would allow the TSA to consolidate 
that process and actually adjudicate all--for everybody. They 
said they are not interested in doing that, but we believe the 
language would provide that opportunity for them to do that, 
and we are concerned with that.
    Ms. Jackson Lee. Let me quickly, thank you so very much.
    As you know, at present, the cost of a SIDA airport 
credential is $29, while the cost of a TWIC is $134. Both 
programs are fully fee-funded and this bill establishes a new 
potentially costly appeals and waiver process within the SIDA 
program. As an airport operator, Mr. Walker, are you concerned 
that TSA will raise the cost of the fees to accommodate all 
these programatic changes?
    Mr. Walker. Yes.
    Ms. Jackson Lee. Ms. Olivier.
    Ms. Olivier. Yes, Ranking Member Jackson Lee.
    Ms. Jackson Lee. Okay.
    Ms. Olivier. Certainly we feel that the process with the 
airports now is an extremely cost-effective process and an 
effective one.
    Ms. Jackson Lee. Thank you.
    Let me conclude, Mr. Chairman and raise the point. I 
represent a very diverse community, a large number of 
minorities, a large number of minorities who have rehabilitated 
their lives and have become truck drivers and have access to 
port and have gotten TWIC cards. The one point that I want to 
have on the record, I will not support legislation that 
eliminates jobs or eliminates the opportunities for minorities 
who have had an unfortunate misstep in their lives.
    We are now under the TSA process. They are able to secure a 
waiver if enough information is given, keep their job. If it is 
now merged and individuals will then be blocked, they may not 
want to come to the airport. They may be able to do well going 
to ports and driving trucks. I am not going to see African-
Americans and others denied work--if I have fought as hard as I 
can--because of this merged process.
    By the way, the TWIC card system is not perfect. It takes a 
long time, and all I do is spend my time with a lot of my inner 
city workers trying to work and trying to get a TWIC card. I do 
not want to try to support something that is going to add extra 
levels.
    Let me yield back and thank you, Mr. Chairman.
    As I said, I look forward to working with you.
    Mr. Rogers. On that point, Mr. Sadler, my understanding is 
the waiver helps people who have had a checkered background, is 
that not true?
    Mr. Sadler. That is correct. So what the waiver does it 
allows----
    Ms. Jackson Lee. I understand that, I understand that. But 
if we merge it and have the same process as SIDA, SIDA has a 
more extensive prohibition of disqualifying crimes, and that 
means my guys, my inner city guys, rural guys, whoever it is 
who are trying to support their families are thrown to the 
wolves again, can't get a job.
    Mr. Rogers. I want to come up with some language that will 
alleviate with that.
    Ms. Jackson Lee. I would be happy to work with you.
    Mr. Rogers. Let's work on trying to get that fixed because 
Mr. Rojas doesn't want to prohibit people from getting into his 
industry either. He says he has a shortage of drivers, so we 
will work on that.
    Ms. Jackson Lee. Thank you.
    Mr. Rogers. The Chairman now recognizes the gentleman from 
Minnesota, Mr. Cravaack.
    Mr. Cravaack. Thank you, Mr. Chairman.
    Thank you for coming here today. I appreciate it, 
especially crammed all together on that small little table 
there, so I appreciate that.
    One of the things I have got a couple of questions about, 
with this modernization bill, I am just going to go real 
quickly because of time, with this modernization bill, will it 
increase the level of safety to the traveling public? If I 
could just go down the row, I appreciate it.
    Mr. Sadler. We think it will increase security if TSA is 
allowed to adjudicate the criminal background checks in 
addition to the other information and apply the look-back 
periods that we have now for TWIC and HME drivers as well, but 
it will also increase the fairness in the redress process.
    Mr. Cravaack. Perfect.
    Yes, sir.
    Mr. Bowman. I would have to say our review of it was more 
in line with the findings of our report, so I would not be able 
to comment on your question.
    Mr. Cravaack. Fair enough, thank you.
    Ms. Olivier. Well, it does provide for airports to continue 
with the level of responsibilities and authority that they 
have, so we feel in that regard it allows us, airports, to 
continue to do the good work that they have done to date.
    Mr. Cravaack. So it doesn't impede on your ability to say 
who you want on your tarmac?
    Ms. Olivier. That is it.
    Mr. Cravaack. Okay.
    Yes, sir.
    Mr. Rojas. I am not quite sure from the safety perspective 
how it would impact, but certainly the ability of undergoing a 
single background check rather than multiple background checks 
is a very positive development for our drivers and to be able 
to attract good people into the industry, and that would 
certainly be a positive development.
    Mr. Cravaack. Just a note for you, Mr. Rojas, it looks like 
there will be, at the markup, there will be a manager's 
amendment that will address the issue regarding carrying hair 
spray and food coloring, so they will be addressing that issue 
as well.
    Mr. Rojas. Great. Thank you very much.
    Mr. Cravaack. Mr. Walker.
    Mr. Walker. I can't speak to the surface transportation 
issue, but from an airport perspective, if the language is 
strengthened to make sure that we continue to be able to do 
what we are doing today, I don't think we will improve the 
security, but we will certainly continue to maintain the high 
level of security that we already have.
    Mr. Cravaack. I am all about keeping the Federal Government 
out of our backyards, so I agree with that as well. Okay.
    Also down the line again, will it streamline and make more 
efficient and effective the credentialing process and 
procedures?
    Mr. Sadler. By modernizing our system and harmonizing the 
background checks, it will go from single systems for each 
program, single programs, to a person-centric ability, and what 
that means is we will be able to manage an individual from the 
time they enroll to the time that they get issued a benefit. 
So, therefore, if you need a hazmat endorsement, you don't just 
have to apply for a hazmat endorsement. If you need a TWIC, you 
don't have to just apply for a TWIC. If Steve Sadler comes in 
and enrolls, he will enroll once and we will use it many times, 
so it is going to increase the efficiency.
    Mr. Sadler. So it is going to increase the efficiency.
    Mr. Cravaack. Will it also decrease the amount of time and 
fees associated with an individual waiting for credentialing?
    Mr. Sadler. Well, we would hope that it would decrease the 
amount of time that they would be waiting for the credential 
because we would have a better system to do the work with.
    As you know, Congress directed TSA to collect user fees to 
sustain our programs. Right now, we are in the midst of 
developing a regulatory evaluation on the fee structure. So I 
am not in the position to be able to comment on that now. But 
once we get that out, we are going to send it to our 
stakeholders, and it is going to be very important for them to 
comment on it, and we will understand what their issues are 
with it.
    Mr. Cravaack. Fair enough.
    Thank you, sir.
    Mr. Bowman. To your first point, would it increase the 
efficiencies, the bill's language seems to be in line with what 
we found in our report, is that the consolidation of the 
security threat assessments would, as Mr. Sadler was referring 
to, would allow the information to be shared among the agencies 
and increase those efficiencies so that, as far as your second 
point, I would not be able to comment at this time.
    Mr. Cravaack. I have got about 1 minute left. So if we 
could go down the line, I would appreciate it.
    Ms. Olivier. There are some aspects where it might help the 
airport process, reaching into Customs and Border Patrol, for 
example. At airports, there is a separate credentialing, a 
separate background check process required by there. So if 
those can be consolidated and harmonized, it will help expedite 
the clearance of workers. There is a lot of turnover at 
airports. We need that.
    Mr. Cravaack. Sure. I understand. Thank you.
    Mr. Rojas. I would say that eliminating the stovepiping 
that Mr. Sadler mentioned is critical and certainly the 
elimination of costs for as long as you reduce the number of 
credentials required. That is a big reduction in cost. But we 
also think that there are economies of scale, you could reduce 
further the cost of the truck credential, for example.
    Mr. Cravaack. All right. Thank you.
    Mr. Walker. I agree with Ms. Olivier in terms of the TSA 
and CBP process. If they can harmonize that, then we could have 
one process that will save us some time and money as well.
    Mr. Cravaack. Thank you, sir.
    I have 3 seconds left, and I will yield back, sir.
    Mr. Rogers. I thank the gentleman. The Chairman now 
recognizes the Ranking Member of the full committee, the 
gentleman from Mississippi, Mr. Thompson.
    Mr. Thompson. Thank you, Mr. Chairman.
    At least we get some good discussions.
    Mr. Sadler, I understand that everybody here has spoken 
about competition. I understand that there is an IDIQ out right 
now for modernization that you plan to award without 
competition. Am I correct?
    Mr. Sadler. No, sir, not that I am aware of.
    Mr. Thompson. Well, sole source it. I don't want to get 
into semantics. You don't plan to sole source it?
    Mr. Sadler. For our modernization effort?
    Mr. Thompson. For the TTAC modernization----
    Mr. Sadler. Not that I am aware of, sir. But I can 
certainly go back and ask the acquisition folks if they have 
anything that----
    Mr. Thompson. Well, I really wish you would. If it is 
competition, I think all of us want that.
    Mr. Sadler. We plan to compete, just like we competed the 
aviation channelling services. We had references to AAAE 
passing the information at the TSA. We knew that needed to 
change. We went out with a full and open competition. We 
decided through technical and cost evaluations on three service 
providers. We are going to do the same thing with the 
modernization system. It is going to be full and open 
competition. As a matter of fact, we already had an industry 
day for modernization. We issued a draft RFP to stakeholders 
for comment. We received approximately 450 comments on that 
draft request for proposals, and they are being considered and 
responded to now. But I will certainly go back and ask that 
question.
    Mr. Thompson. I am glad to see you looking for a full and 
open competition.
    Are you aware that TSA Assistant Administrator Weldon 
attempted to relocate the office from Arlington to Annapolis 
Junction, Maryland, without competition?
    Mr. Sadler. I was there when that issue occurred.
    Mr. Thompson. You are aware of it?
    Mr. Sadler. I was there when it happened.
    Mr. Thompson. You understand that people got involved and 
said, you can't do it that way. Are there any plans to relocate 
the office now?
    Mr. Sadler. Not that I am aware of. What I am aware of is 
when that issue occurred, the question was asked about moving 
resources due to space restrictions up to another facility. The 
result of that was, I believe, we have much more open 
communications with our staff. Our staff is fully informed of 
any decisions that we believe we may make in the future. We 
have--and these may sound like minor things, but they aren't. 
They are very important things. We have many town halls. We 
have a new newsletter. We have staff meetings. So like I said, 
I was there. It was a troubling time to be a part of that. It 
was very serious. But some good things came out of it, and I 
think we are in a much better position today than we were----
    Mr. Thompson. So you are saying to us, if the relocation 
comes back on the agenda, you plan to follow the protocols that 
are required?
    Mr. Sadler. Absolutely.
    Mr. Thompson. Thank you.
    I understand there are about 96 million people who are in 
the TTAC small vetting programs that don't pay fees. You were 
talking about in your rulemaking giving it authority by 
Congress. Are you planning to start charging those individuals 
a fee?
    Mr. Sadler. Where it is appropriate to collect a fee, yes, 
we plan to use our Congressional authority to do that. Because 
as you just stated, we are directed by Congress to collect the 
user fees to sustain any program that we have.
    Mr. Thompson. Thank you, Mr. Chairman, for the hearing. 
With respect to airports during the vetting of employees, is 
your testimony that TSA should not be involved in that process, 
that it is a local issue?
    Mr. Sadler. No. My testimony is that TSA should be involved 
in that process because our mission is transportation security. 
But on the flip side of that, we also believe that the airports 
should have final control and the decision-making ability on 
who comes into their airport. So we believe that we need to 
adjudicate date----
    Mr. Thompson. Explain just for my benefit the difference 
between who comes into the airport and what you are talking 
about now.
    Mr. Sadler. So we have the background check that we do now 
is based on certain disqualifiers. If you have been released 
from incarceration within the last 5 years or convicted within 
the last 7 years for certain felonies or if you have ever been 
convicted of other felonies; so for instance, if you were 
convicted of murder any time in your life, that is an issue we 
need to look into.
    So what we would do is we would do the adjudication based 
on those disqualifiers which we hopefully would harmonize with 
the TWIC and the HME programs. If the airport decided to 
adjudicate that criminal history record information based on 
standards that they have or increased standards, they should 
have the right to do that. So there could be a case where TSA 
would approve someone to get a SIDA badge, but because of the 
requirements of the airport--and as I understand it, certain 
airports have more strict requirements than others. It does 
happen. They should have the ability to deny that credential 
because they are going to allow the access into that facility.
    Mr. Thompson. Thank you.
    If I might, Mr. Chairman, Mr. Walker.
    Mr. Walker. That creates a great concern for us as 
airports. Because what Mr. Sadler just said is they are going 
to start adjudicating records that they are not doing today. So 
what cadre of staff are they going to hire to do that? What is 
the time going to be? This is going to lengthen the time for us 
to be able to get badges issued to people that have already 
been hired and ready to go to work and they can't until they 
get their badge.
    This is going to create--any time the Federal Government--
excuse me--starts controlling a process, I have never seen it 
become more timely and less costly. So that is our concern as 
airports. We have lots of turnover, and these people are going 
to be waiting longer for their badges. They won't get paid as 
soon. I don't see the necessity of them adjudicating. They can 
set the rules. We can review the records and adjudicate like we 
are doing it today. They can monitor and audit us like they do 
today to make sure that we are in compliance with their rules 
and regulations. But taking over the program is just going to 
add cost and time to it, and I don't see how that is going to 
improve security at all.
    Mr. Thompson. Taking over the program, Mr. Chairman, is not 
what I see as the spirit. I thought we were trying to give the 
local airports the authority. It just appears that somehow it 
is getting interpreted altogether different. I don't have a 
problem with the local airports doing it, but it looks like we 
are going down two different directions.
    Mr. Sadler. Thank you, sir. The first thing I want to say 
is that if you pull the airport population from this universal 
rule and do not allow us to do that criminal adjudication, then 
you pull over a million workers out of comparability and 
harmonization, and you also deny TSA the opportunity to vet 
those individuals completely with all of the information.
    The second thing I would say is the information that we are 
talking about here as far as costs, fees, times are all within 
the universal rule and that will be out for notice and public 
comment. Those are very important to us.
    The third thing I would say is we have been doing this a 
long time. We have got a lot of people and with the Hazmat 
Threat Assessment Program, we had 33 States that used the TSA 
agent as opposed to collecting their own information when we 
started in 2005. We have an additional five States now. So we 
have 38 States and the District of Columbia because those 
States were having difficulty with their process. They knew we 
were doing a good job. They knew we could do a good job, and we 
are doing a good job.
    Mr. Thompson. Mr. Chairman, let me read, if I may, Mr. 
Sadler's statement: TSA plans to assume the adjudication of 
criminal background checks for airports and aircraft operator 
workers, which is currently performed by the airports and 
airlines.
    I mean, that is your statement.
    Mr. Sadler. I think you have to continue on. Let me find 
that. Do you have the page number there?
    Mr. Thompson. Yeah.
    Mr. Sadler. Here we go. Hold on. If you go down to the 
bottom of that page, we also say that TSA does not, however, 
intend to assume responsibility for worker suitability or 
access control decisions from airports and airlines and will 
continue to send criminal history record information to any 
airport that requests it for the purposes of making its own 
suitability or access control determination.
    So what we are saying is we think we need, in order to 
fully implement harmonization and comparability, to adjudicate 
the criminal records for aviation workers.
    We do not think we need to issue credentials. We do not 
think we need to control access at an airport. We think that is 
best done by the airport themselves. They are in the best 
position to do that.
    But in order to implement comparability and harmonization, 
we need to include that population if we are going to do it 
correctly and in order to achieve our transportation security 
mission.
    Mr. Thompson. Thank you.
    Mr. Rogers. I thank the gentleman.
    The Chairman now recognizes the gentleman from Illinois, 
Mr. Walsh, for 5 minutes.
    Mr. Walsh. Thank you, Mr. Chairman and Ranking Member Lee.
    Folks, if I am repetitive, I apologize. Mr. Sadler, a 
couple of quick basic questions. What is the difference between 
an appeal and a waiver? Succinctly.
    Mr. Sadler. An appeal is an objective determination of 
whether you were the person who got convicted, whether your 
record is correct. So if Steve Sadler has an issue, I can come 
back and say, I wasn't convicted of that crime; the crime was 
expunged; I was convicted of a lesser offense. So basically, I 
am not the guy or the record is incorrect.
    A waiver is a subjective determination by TSA based on the 
rehabilitation of the individual. So the individual has been 
convicted of a disqualifying crime; he or she sends information 
into us; we convene a waiver board, and we merit a 
determination that we feel they aren't a security threat.
    Mr. Walsh. Basic question No. 2, in airports right now, do 
workers currently have access to an appeal, a waiver process, 
or both?
    Mr. Sadler. They have access to appeal in the form of 
correcting their criminal history record information or they 
can appeal an immigration or a National security decision made 
by TSA, keeping in mind that the airports adjudicate the 
criminal history records at this time. They don't have access 
to waivers.
    Mr. Walsh. Third final basic question, is it fair in your 
estimation that truck and port workers have appeal access and 
access to a waiver process but airport workers only have access 
to an appeal process and are not allowed to have access to a 
waiver process?
    Mr. Sadler. It is an interesting question. We were directed 
by law by the NHTSA Act to include a waiver process with an 
administrative law judge review. That does not exist for 
aviation workers at this time, but we think it is the right 
thing to do. An example of that is, we took the waiver process 
from the TWIC rule and we included it with the hazardous 
material endorsement rule. So we were not directed by law to 
include that in the hazardous materials process, but we did 
anyway because we thought it was the right thing to do. We 
think it is the right thing to do with aviation workers.
    Mr. Walsh. So they should have access to both?
    Mr. Sadler. We think so, yes
    Mr. Walsh. Mr. Rojas, a quick question, this act, the 
MODERN Security Credentials Act, will it reduce costs and cut 
through redundant regulations for your drivers?
    Mr. Rojas. Yes, if we achieve the goal of a single 
credential, a single background check process that will allow 
the drivers to comply with multiple security requirements, yes, 
it will reduce the cost; one single payment, one process, 
period. In addition to the fees, obviously there are time off 
requirements off of work in which they lose salary and 
everything else. So we do believe it would be a positive 
development.
    Mr. Walsh. Ms. Olivier, clear up one thing for me. You have 
expressed valid concerns about the direction you see TSA 
heading towards Federalizing some of these local security 
processes. In your view, would this Act help protect local 
security processes and functions?
    Ms. Olivier. Yes, Congressman. That is the way we saw the 
legislation that specifically called out the local authorities 
and responsibilities at the airport.
    Mr. Walsh. Great. Thank you.
    Mr. Chairman, I would like to just yield to one quick 
question from my colleague from Minnesota, Mr. Cravaack.
    Mr. Cravaack. I thank you for yielding, sir.
    Just a quick question for Mr. Walker. Mr. Walker, you rely 
on TSA right now presently to do part of your background checks 
for your local airport, correct?
    Mr. Walker. They do the STA checks, yes.
    Mr. Cravaack. Right now, the TSA is doing that for free, 
are they not?
    Mr. Walker. I believe so, correct.
    Mr. Cravaack. Right now, Mr. Sadler, since you are doing 
those background checks for free right now, basically you are 
disseminating the costs associated with the background checks 
for the airports over to possibly the truckers and everybody 
else. Would that be a correct statement?
    Mr. Sadler. We do that work through appropriations.
    Mr. Cravaack. Okay. Well----
    Mr. Sadler. So, basically, we are--the taxpayer is paying.
    Mr. Cravaack. So, in essence, the one you actually go 
through to the TWIC card, as I understand it--correct me here 
if I am wrong, sir--those that would actually be receiving your 
service would be the ones that would be paying for it. Would 
that be a correct statement?
    Mr. Sadler. That is correct. We would be collecting user 
fees to sustain the program.
    Mr. Cravaack. So it wouldn't be spread on a trucker for an 
aviation background check?
    Mr. Sadler. No. Our intent is to charge fees for services 
provided.
    Mr. Walker. It means our fees are going up. I guarantee it.
    Mr. Cravaack. Okay, sir, but you are not paying for 
anything now, correct?
    Mr. Walker. No. All of our fees. They are going to do the 
adjudication, and then they are going to send it to us. We are 
going to have to do it. We are going to have to pass those 
costs along to our tenants. The costs for people who work at 
the airport are going to go up with the process that the TSA is 
proposing. It might come down for Mr. Rojas. That is great. 
They are going to go up for aviation, and that is going to pass 
costs onto the airlines and our tenants, which is not good for 
creating jobs.
    Mr. Cravaack. Okay, sir, but just to be clear, they would 
be paying fee for service, correct, sir?
    Mr. Walker. We are going to start duplicating services 
because they are going to do the things that we are already 
doing, and then we are going to have to do them ourselves a 
second time. That costs money. They are going to pass that cost 
on along to us. Then we are going to have the same costs we 
already have today. That is a duplicative cost that is going to 
get passed to our users.
    Mr. Cravaack. I will yield back to Mr. Walsh.
    Thank you very much, sir.
    Mr. Walsh. I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentlemen.
    The Chairman now recognizes the gentleman from Illinois, 
Mr. Davis, for 5 minutes.
    Mr. Davis. Thank you very much, Mr. Chairman.
    Mr. Sadler, I appreciate the fact that TSA has long sought 
authority from Congress to raise the ticket fee. In your 
testimony, you indicate that the rulemaking TSA is currently 
working on would require, quote, new populations to pay a fee 
for vetting by TTAC. Which new populations will be covered? You 
talked about travelers using Secure Flight or flight crews. If 
yes, then it sounds like it might be a backdoor effort to raise 
the ticket fee. Is that what----
    Mr. Sadler. There is no effort on our behalf to raise the 
ticket fee, sir. It is all about security threat assessments 
for transportation workers and fee fairness and equitability 
for that fee across transportation modes. By ticket, I am 
assuming you are speaking to an airline ticket?
    Mr. Davis. Yes.
    Mr. Sadler. Yeah. No, that was not our intent.
    Mr. Davis. Thank you very much.
    Mr. Rojas, let me ask you, what are some of the challenges 
associated with the current credentialing for individuals who 
would haul hazardous materials?
    Mr. Rojas. Well, I think part of the program--when we first 
analyzed the program, one of the issues that we had and that we 
pushed for was that it be developed as a National--National 
uniform system. Right now, as Mr. Sadler mentioned, there are 
38 States that use a TSA contractor. However there are 12 other 
States that do their own sort of program. Some of those fees 
can be higher than the cost associated with using a TSA 
contractor. So the lack of uniformity is one of the concerns 
that we certainly had Nation-wide. One of the--and that is why 
we continue to push--the fact is one of the biggest issues that 
we have within the hazmat environment is that, of course, not 
all hazardous materials are created equal.
    So there are certain materials that could be considered 
weaponizable per se, toxic by inhalation, perhaps some 
radioactives, some explosives. But there are a number--a large 
universe of materials that did not qualify as a security threat 
per se. We don't think drivers that are going to be 
transporting some of these less secure, low-risk materials 
should be undergoing a fingerprint-based background check for 
the purpose of performing their duties.
    Mr. Davis. So you are suggesting that there might be 
differentials which would allow individuals to transport some 
materials but not others?
    Mr. Rojas. That is correct. I mean, in essence, if you want 
to transport certain types of materials that represent a higher 
security risk, then you should be required to undergo a 
fingerprint-based background check for the purpose of 
transporting those materials but not the hairsprays, the Coca-
Cola, and syrup and everything else.
    Mr. Davis. Thank you very much.
    Mr. Walker, let me ask you, what are your opinions in 
establishing an appeals and waiver process to see that 
credentialing and whether or not you have had any really 
expressions of concern from tenants and operators about this 
process?
    Mr. Walker. I am not aware of significant concerns in that 
process for airports. If it was determined that there should be 
a waiver process, what I would recommend, then, is that the TSA 
develop some regulations of how that would work and let us 
continue to function the way we are.
    We can handle that process under regulatory oversight, just 
like we do the processes we have today. I don't see that we 
need to have one-size-fits-all in a very diverse transportation 
community, airports or not, the same as surface transportation. 
It seems to me that TSA is trying to get a one-size-fits-all, 
and it just doesn't work. If they want to add that to the 
process, if this committee feels that is important, then they 
can establish the rule and we can very effectively handle that 
kind of a process just like we do the processes today.
    Mr. Davis. Would you suggest that there is need for 
considerable time to review and analyze to make a 
determination, given the large numbers of individuals who seek 
these credentials?
    Mr. Walker. We don't have a large number of people that are 
denied badges in the first place, because most of the employees 
that come to us for badging are processed by a private-sector 
employer. Out of 18,000 employees, our people who have badges, 
I report about 1,400 who work for us at airport. So they do 
their own screening. So we don't have a lot of denials in the 
first place. If there is a need to have that kind of a waiver 
process, and this committee establishes that in regulations, we 
will do a very effective job in managing that process like we 
do the processes that we have today.
    Mr. Davis. Thank you very much.
    Thank you, Mr. Chairman. I yield back.
    Mr. Rogers. I thank the gentleman. I am confused now. AAAE, 
which is in the airport business, just like your organization, 
does not see these concerns that you have got. What is the 
deal? Ms. Olivier, can you tell me? Does this bill scare you as 
much as it scares Mr. Walker?
    Ms. Olivier. No, Mr. Chairman. I am encouraged by the way 
this seeks to preserve the authorities of the airports, and it 
did concern me that the TSA said that they would be the 
adjudicator. This bill preserves the authority and the 
responsibilities as they are now, the procedures conducted by 
airports. With that is the adjudication and criminal history 
records check. So what we feel is, of course, the TSA needs to 
concentrate, and I think the focus of this legislation does 
that, encourages the DHS to focus on the parts that they are 
responsible for. That is the STA process, and that is ensuring 
that the criminal history records based on fingerprints are 
related to the airports for adjudication.
    Mr. Rogers. I can assure you what we are after is to make 
it simpler. One of the problems I have heard from my trucking 
organizations is how unreasonable it is to require a trucker to 
go on two separate days to get two different investigations, 
pay for both of them when--if he is a security concern, we 
ought to be able to knock it out at one time. That is what we 
are after, trying to simplify things and at the same time be 
effective. So we want to work out these concerns you have got 
to the extent we can. I can assure you, I don't want any more 
big Federal Government in your business than we have got to 
have. We are going to work to that end. Also to maintain your 
autonomy because I don't want to be in the airport business 
either. So we want to work with you.
    Ms. Jackson Lee, if you have anymore questions, you are 
recognized.
    Ms. Jackson Lee. Just to say, Mr. Chairman, I am glad that 
you are seeking to dissect confusion.
    My point is modernization has a positive premise. We have 
to delineate responsibilities. We have to know what Mr. Sadler 
is actually going to do. If he does not want to yield--does not 
want to secure adding authority to adjudicate, it needs to be 
clear. Then additionally, we need to make sure that our job is 
to create jobs and not to end jobs.
    I make the final point that people who have been 
incarcerated range across ethnic lines. I don't want to 
highlight one particular group, but there is a disproportionate 
impact in some inner city minority communities and rural areas. 
I would simply say to you that our work over the years has not 
seen a former burglar, per se, mastermind the demise of the 
World Trade towers. We need to give Americans the chance to be 
rehabilitated, to work and provide for their families. That is 
what I would like to see happen.
    Mr. Rogers. I agree.
    The Chairman now recognizes Mr. Cravaack.
    Mr. Cravaack. Well, I can hear with just all the bells 
working. We are going to go and vote here.
    Mr. Walker, you bring up some good points. Being an airline 
pilot, the last thing we want to do is increase fees to 
airlines. But my question is: You say your fees will increase. 
Is that because you are doing a duplicative background check to 
what the TSA is already doing?
    Mr. Walker. No, right now, the criminal history record 
check information comes to us. Our staff reviews it and 
adjudicates whether the person is eligible for a badge under 
the regulations that we have. Then the TSA has oversight, and 
they audit us to make sure we are doing the job correctly. What 
I heard Mr. Sadler say is that they intend to adjudicate, and 
then they would send us if we so request the same information, 
which then we would have to go through the same process to 
determine whether we are going to issue a badge. That is 
duplicative. That will add additional cost to our process, 
which then we will pass on. The ultimate payers, as you know as 
an airline pilot, are the airlines at the airport. They fill 
the gap.
    Mr. Cravaack. It is actually the consumer at the tail end.
    Mr. Walker. The consumer at the tail end.
    Mr. Cravaack. Mr. Sadler, do you think that there is some 
ground here that you could work together with the concerns of 
Mr. Walker?
    Mr. Sadler. Well, that is part of our regulatory evaluation 
and fee structure rule that we are going to put out for notice 
and comment. We can also meet with the stakeholders prior to 
the issuance of that MPRM, and we do frequently. We are 
certainly willing to do that.
    Mr. Cravaack. Thank you very much for that because the last 
thing that any of us as consumers would want would increase 
fares, especially with our rising gas prices as well.
    Thank you very much, sir, and I appreciate it.
    I yield back, Mr. Chairman.
    Mr. Rogers. I thank the gentleman.
    I do want you all to know I appreciate you making the time. 
This has been very helpful for me, very informative for our 
staff and the other Members of this committee. I can assure you 
my staff will be reaching out to you all again as we look at 
other modifications that will allay some of the concerns that 
were raised here today. Our Majority staff is going to be 
reaching out to the Minority staff to make sure we address some 
of the concerns that we were raised by the Minority Members 
here today as well.
    Ms. Jackson Lee. Mr. Chairman, likewise, I would like an 
equal opportunity for those persons who have been very nice and 
informative witnesses to reach out to both sides of the aisle 
so that we can have information working together as this 
committee has done over the tenure that we have been together 
and previously as well. Thank you. I yield back.
    Mr. Rogers. So with that, thank you. I do want you to know 
that the committee hearing will be held open technically for 10 
days. Members who weren't here may have questions that they 
want to submit to you in writing. I would ask that you respond 
to those. With that, we are adjourned.
    [Whereupon, at 3:31 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
